                                     Social Security Administration
                                 Office of the Inspector General
                                   Semiannual Report to
                                        Congress
                                     April 1 – September 30, 2008




Report Fraud, Waste, and Abuse
 1- 800 - 269 - 0271
     Social Security Administration
     Office Of The Inspector General
                                                                     How to Report Fraud
                                                          The SSA OIG Fraud Hotline offers a means for you to
              Mission Statement
                                                         provide information on suspected f raud, waste, and abuse.
 By conducting independent and objective audits,          If you know of current or potentially illegal or improper
     evaluations and investigations, we inspire              activities involving SSA programs or personnel, we
  public confidence in the integrity and security          encourage you to contact the SSA OIG Fraud Hotline.
  of SSA’s programs and operations and protect
 them against fraud, waste and abuse. We provide                    Call	1-800-269-0271
timely, useful and reliable information and advice
  to Administration officials, Congress and the                   Write	 Social Security Administration
                      public.                        	                   Office of the Inspector General
                                                     	                   Attention: SSA Fraud Hotline
                                                     	                   P. O. Box 17768
               Vision and Values                     	                   Baltimore, MD 21235

  We strive for continual improvement in SSA’s                       Fax	410-597-0118
     programs, operations and management by
  proactively seeking new ways to prevent and                  Internet   www.socialsecurity.gov/oig
   deter fraud, waste and abuse. We commit to
    integrity and excellence by supporting an            To obtain additional copies of this report, please visit our
                                                                  website at www.socialsecurity.gov/oig
  environment that provides a valuable public
service while encouraging employee development
    and retention and fostering diversity and                              SSA Pub. No. 85-007
                    innovation.




         Cover photograph and U.S. Capitol
        photographs used with permission of
                 Steven Ballegeer
                                                                 Semiannual Report to Congress




  A Message from the
  Inspector General
  Once again I am pleased to present the Social Security
  Administration Office of the Inspector General’s
  Semiannual Report to Congress, which highlights some
  of our most significant accomplishments over the last
  6 months. I am honored to lead an organization that
  strives to maintain the integrity of the Social Security
  system, which aids the most vulnerable of our citizens in
  these times of increasing challenges and uncertainties.
  During this reporting period, our employees have
  continued to address existing concerns and taken the lead on tackling new ones. For example,
  our auditors released eight reports assessing aspects of SSA’s disability programs. Three of
  those reports targeted the disability appeals backlog that continues to garner the attention of
  Congress as well as the thousands of claimants waiting for decisions. In an effort to clarify some
  possible reasons for the backlog, I testified in September before the Subcommittee on Social
  Security of the House Committee on Ways and Means. The OIG will continue to respond
  to the Agency, Congress, and all Americans with an objective eye focused on eliminating the
  backlog and improving the claims process from beginning to end.
  Our investigators have also devoted their energies to improving the integrity of SSA’s disability
  programs, by targeting those who perpetrate fraud against them. This office not only fights
  disability fraud as it occurs, but our investigative analysts also identify trends and patterns
  to better respond to new challenges as they arise. For example, during this reporting period
  they identified and pursued individuals who were earning disability benefits under one Social
  Security number while reporting earned wages under another. At the heart of all the OIG’s
  efforts are our 576 employees nationwide—agents, auditors, attorneys, and others with a
  remarkable commitment to serving the public good. With this report, this office and all who
  make it successful renew our dedication to working alongside our partners in the Social Security
  Administration and the Congress to fulfill our mission of improving and protecting the vital
  Social Security programs upon which so many Americans depend.

   S
  Patrick P. O’Carroll, Jr.
  Inspector General




April 1 – September 30, 2008                                  Message from the Inspector General       
    Semiannual Report to Congress




                                   April 1 – September 30, 2008
                                                                                 Semiannual Report to Congress




                     Social Security Administration
                     Office of the Inspector General

                                                n
       Contents
           A Message from the Inspector General......................... 1
           Executive Summary................................................................5
           Introduction to Our Organization............................... 6
           Impact..........................................................................................8
           Value........................................................................................ 20
           People........................................................................................32
           Reporting Requirements . .................................................36
           Appendices...............................................................................38
           Glossary of Acronyms . ......................................................62




April 1 – September 30, 2008                                                                                     
    Semiannual Report to Congress




                                   April 1 – September 30, 2008
                                                                Semiannual Report to Congress




Executive Summary                                 available to the general public. In addition,
                                                  our auditors completed four congressional
This report presents the significant              response reports, including an assessment
accomplishments of the Social Security            of factors affecting administrative law judge
Administration (SSA) Office of                    (ALJ) and hearing office performance; and
the Inspector General (OIG) from                  an analysis of financial institutions (FI)
April 1  – September 30, 2008. The report         deducting service fees and garnishments
is organized according to three major             from beneficiaries’ accounts.
goals—impact, value, and people—set forth
in the OIG Strategic Plan: Fiscal Years 2006      Value
– 2010, Third Edition.
                                                  Our organization strives to provide
                                                  valuable products and services in a timely
Impact                                            manner to Congress, SSA, and other key
We work to have a positive impact on SSA          decision makers while sustaining a positive
programs and operations by enhancing              return for each tax dollar invested in OIG
their integrity, efficiency, and effectiveness.   activities. During this reporting period, our
During this reporting period, we received         auditors identified more than $1.7 billion in
more than 68,000 allegations from SSA             questioned costs and more than $808 million
employees, the Congress, the public, law          in Federal funds that could be put to better
enforcement agencies, and other sources.          use. Highlighted audits include an analysis
Our agents closed more than 5,000 criminal        of whether information obtained from FIs
investigations, resulting in 800 arrests, more    could help SSA identify Supplemental
than 500 indictments and informations, and        Security Income (SSI) recipients who no
more than 1,400 criminal prosecutions and         longer meet the requirements for eligibility,
civil monetary penalty (CMP) assessments.         and an analysis of whether SSA had properly
Our Cooperative Disability Investigative          imposed benefit offset provisions to the
(CDI) Program continues to be one of our          records of individuals who earned benefits
most successful initiatives, contributing to      based on both their spouses’ and their own
the integrity of SSA’s disability programs.       earnings.
During this reporting period, the efforts
                                                  In the second half of FY 2008, we are
of our CDI Units resulted in more than
                                                  reporting over $170 million in investigative
$108 million in SSA program savings.
                                                  accomplishments, with over $31 million
Our auditors also had a significant impact        in SSA recoveries, restitution, fines,
during this reporting period, issuing             settlements, and judgments, and over
68 reports and making recommendations             $138 million in projected savings from
on a wide variety of challenges facing the        investigations resulting in the suspension
Agency. Our audit work over the past              or termination of benefits. In addition, we
6 months included a review of the erroneous       participated in multi-agency investigations
release of living individuals’ personally         that resulted in over $39 million in savings,
identifiable information (PII) when               restitution, and recoveries for other agencies.
SSA’s Death Master File (DMF) is made             Highlighted investigations in this section


April 1 – September 30, 2008                                                         Executive Summary  •  
         Semiannual Report to Congress




            uncovered evidence of disability program
            fraud, representative payee fraud, and Social
                                                              Introduction to Our
            Security number (SSN) misuse.                     Organization
            During this reporting period, our attorneys       The SSA OIG comprises the Immediate
            initiated 234 CMP actions (Section 1129           Office of the Inspector General and five major
            cases) that involved false statements or          components: the Offices of Audit, Counsel,
            representations made in connection with           External Relations, Investigations, and
            obtaining or retaining benefits or payments       Technology and Resource Management.
            under Titles II and XVI of the Social Security
            Act (the Act). Included in our investigative      Immediate Office of the Inspector
            accomplishments above is over $3.4 million        General
            in penalties and assessments that our attorneys   The Immediate Office (IO) provides the
            imposed through our CMP program.                  Inspector General with staff assistance on
                                                              the full range of his responsibilities. IO staff
             People                                           provides liaison with all agencies sharing
            The collective efforts of our employees           common interests with OIG and ensures
            continues to be the driving force behind this     coordination with congressional committees,
            organization’s success in meeting its mission.    SSA, the Social Security Advisory Board,
            We provide an encouraging and rewarding           and the President’s Council on Integrity and
            work experience with the goal of retaining        Efficiency. IO includes the Office of Quality
            these exceptional individuals. OIG leadership     Assurance and Professional Responsibility
            fosters an environment where employees can        (OQAPR), which performs two critical
            realize their potential through training and      functions. First, it conducts exhaustive reviews
            developmental programs. Each year, OIG            of each of the OIG’s component offices to
            components hold training conferences to           ensure compliance with Federal laws and
            inform their employees about new procedures       regulations, Agency policies, and relevant
            and share best practices. In addition, the OIG    professional standards. Second, OQAPR
            Organizational Health Committee conducts          conducts thorough and timely investigations
            an annual assessment of employee satisfaction     into allegations of misconduct by an OIG
            levels and addresses employee concerns.           employee.
                                                              Office of Audit
                     o                                        The Office of Audit (OA) conducts and
                                                              supervises financial and performance audits
                                                              of SSA programs and operations, and makes
                                                              recommendations to ensure that program goals
                                                              are achieved effectively and efficiently. Financial
                                                              audits determine whether SSA’s financial
                                                              statements fairly present SSA’s financial
                                                              position, results of operations, and cash flow.
                                                              Performance audits review the economy,




  •  Executive Summary                                                       April 1 – September 30, 2008
                                                                Semiannual Report to Congress




efficiency, and effectiveness of SSA’s programs   SSA employees while performing their official
and operations. OA also conducts short-term       duties. This office serves as the OIG’s liaison
management and program evaluations, and           to the Department of Justice (DoJ) on all
other projects on issues of concern to SSA,       matters relating to the investigation of SSA
Congress, and the general public.                 programs and personnel. OI also conducts
                                                  joint investigations with other Federal, State,
Office of Counsel to the                          and local law enforcement agencies.
Inspector General
                                                  Office of Technology and
The Office of Counsel to the Inspector
General (OCIG) provides independent               Resource Management
legal advice and counsel to the Inspector         The Office of Technology and Resource
General on a wide range of issues, including      M a n a g e m e n t (OT R M ) p r o v i d e s
statutes, regulations, legislation, and policy    administrative support to the Inspector
directives. OCIG also administers the CMP         General and OIG components. OTRM
program, and advises the Inspector General        formulates and executes the OIG budget,
on investigative procedures and techniques, as    and is responsible for strategic planning,
well as on legal implications and conclusions     performance reporting, and facility and
to be drawn from audit and investigative          property management. OTRM develops
material.                                         and maintains the OIG’s administrative and
                                                  management policy and procedures, and
Office of External Relations                      performs human resource support activities.
The Office of External Relations (OER)            OTRM also maintains hardware, software,
develops the OIG’s media and public               and telecommunications networks to support
information policies, directs OIG’s external      the OIG’s mission. Finally, OTRM manages
and public affairs programs, and handles          the OIG’s allegation management and fugitive
congressional, media, and public requests for     enforcement programs and Electronic Crimes
information. OER is responsible for preparing     Division.
OIG publications and presentations to internal
and external organizations, and coordinating
the OIG’s presence at SSA and other
Federal events. In addition, OER prepares
the OIG Semiannual Report to Congress and
congressional testimony, and coordinates
with SSA’s Offices of Communications and
Legislation and Congressional Affairs.
Office of Investigations
The Office of Investigations (OI) conducts
and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement in
SSA programs and operations. This includes
wrongdoing by applicants, beneficiaries,
contractors, and third parties, as well as by


 April 1 – September 30, 2008                                       Introduction to Our Organization  •    
         Semiannual Report to Congress




                Impact                                          sentenced in July 2008 to 48 months in prison,
                                                                followed by 3 years of supervised release, for
                The first goal of the OIG Strategic Plan is bribery and tax evasion in connection with the
                Impact. We are committed to enhancing fraud scheme involving three Federal contracts,
                SSA’s effectiveness and efficiency through and for transporting child pornography. He
                our investigative, audit, and legal activities. was also ordered to make restitution to the
                We strive to have maximum impact on SSA’s Internal Revenue Service (IRS) of $400,000,
                programs and operations to ensure their and to register as a sex offender upon his
                continued integrity and reliability.            release from prison.
                During this reporting period, we completed       The company’s former Chief Operating
                numerous audits, investigations, and legal       Officer was sentenced in June 2008 to
                initiatives covering major SSA program and       33 months in prison, followed by 3 years of
                management areas, which had a significant        supervised release, for engaging in a scheme to
                impact on the detection and prevention of        conceal material facts from Federal agencies to
                fraud, waste, and abuse. The summaries           obtain Federal security contracts worth over
                presented below are indicative of our work       $150 million and attempting to evade Federal
                over the past 6 months.                          income taxes. He was also ordered to forfeit
                                                                 $1.25 million related to his illegal activities and
                Legal/Investigative Impact                       to make restitution to the IRS of $290,360.

                Initiatives                                     The GSA employee was found guilty of
                                                                accepting over $100,000 in bribes accepted
                Owner of Federal Security Guard                 for her assistance in awarding three Federal
                Contractor Sentenced to Prison for              contracts worth over $130 million, and for
                Bribery                                         evading income taxes on the bribe payments.
                                                                She was sentenced in July 2008 to 60 months
                We served as the lead investigative agency in in prison, followed by 3 years of supervised
                a complex procurement fraud investigation release. She was also ordered to forfeit
                of a now-defunct security guard contractor. $138,500 and to make $38,780 in restitution
                The company provided armed and unarmed to the IRS.
                security guards for 18 Federal agencies at 120
                installations in 32 States and territories. In
                terms of the value of Federal contracts secured
                through bribery, this case represented the
                largest corruption case ever prosecuted in
                Maryland.
                The company’s former owner and former
                Chief Operating Officer, as well as a long-
                time General Services Administration (GSA)
                employee, were sentenced during this reporting
                period, following guilty pleas to various
                charges. The company’s former owner was


   •  Impact                                                                   April 1 – September 30, 2008
                                                               Semiannual Report to Congress




Audit Impact Initiatives                      Our recommendations to SSA included
                                              limiting the information included in the DMF
OA contributes to this strategic goal by version sold to public customers, initiating
conducting and supervising comprehensive breach notification procedures, and providing
financial and performance audits and by appropriate notification to individuals whose
making recommendations to maximize PII is released in error. SSA is considering
the effective operations of Social Security limiting the information included in the
programs. These audits, along with short-term DMF version sold to the public to the
management and program evaluations, focus absolute minimum required and will explore
on those SSA programs and activities most alternatives to the use of the full SSN. The
vulnerable to fraud and abuse.                Agency also stated it faces several challenges
                                              to limiting the information it provides.
Personally Identifiable Information Made
Available to the General Public Via the Congressional Response Report:
Death Master File                       Financial Institutions Deducting Fees
                                        and Garnishments from Social Security
As a result of a Freedom of Information
                                        Benefits
Act lawsuit, SSA maintains a record of
reported deaths known as the DMF. SSA           In August 2007, the Senate Committee on
provides the DMF data to the Department         Finance and the Senate Special Committee
of Commerce (DoC), which sells the data         on Aging requested that we determine
to various government, industry, and public     whether FIs were deducting service fees
customers—including customers who make          and garnishments from Social Security
the information available at no cost to the     beneficiaries’ direct deposit personal accounts.
general public through the Internet. At the     This request came as a result of media coverage
time of our review, the DMF contained PII       detailing instances in which FIs assessed fees
on over 82 million deceased individuals.        and froze accounts into which Social Security
                                                benefits were being electronically deposited.
Our audit found that since January 2004,
publication of the DMF had resulted in the      We selected a sample of the 12 largest FIs
breach of PII for more than 20,000 living       and randomly selected 13 small, medium,
individuals erroneously listed as deceased.     and large FIs, and requested information
SSA attempted to retract these disclosures      from them for the period September 1, 2006
by deleting the individuals’ information from   – August 31, 2007. The data we received
the DMF. While these deletion transactions      indicated that some FIs deducted service fees
prevented the PII from being included in        and garnishments from beneficiaries’ direct
subsequent versions of the DMF, the deletions   deposit personal accounts. The FIs garnished
had no effect on the PII previously made        $30.4 million associated with nearly 8 million
available to DMF subscribers. Further, we       beneficiaries in our sample—an average of
found that SSA did not provide notification     nearly $4 per account.
to either the U.S. Computer Emergency
Readiness Team or the affected individuals.     Assuming all Social Security beneficiaries
                                                and all FIs in the United States exhibit
                                                similar characteristics, we estimate about


April 1 – September 30, 2008                                                                       Impact  •  
          Semiannual Report to Congress




          $177.7 million in total garnishments for the        Many of these initiatives directly relate to
          45.9 million direct deposit beneficiaries in the    the factors identified during our interviews.
          United States as of February 2008. Although         SSA expects these initiatives to improve the
          Congressional Response Reports do not include       productivity and efficiency of ALJs and hearing
          formal recommendations, we did identify             offices.
          potential safeguards to protect Social Security
          recipients from garnishments.                       Quick Response Evaluation: Timeliness
                                                              of Medical Evidence at Hearing Offices
          Congressional Response Report:                   In October 2007, SSA issued a notice of
          Administrative Law Judge and Hearing             proposed rulemaking (NPRM) that stated,
          Office Performance                               “Our program experience has convinced us that
          We received a request from the chair and ranking the late submission of evidence to the [ALJ]
          member of the House Committee on Ways significantly impedes our ability to issue hearing
          and Means, Subcommittee on Social Security decisions in a timely manner.”
          to provide statistics related to ALJ and hearing To remedy this situation, the NPRM listed a
          office performance along with any factors that number of potential changes to the appellate
          affect performance.                              process, including (1) requiring at least 75
          To identify factors that may impact ALJ and         days’ notice for hearings and (2) requiring the
          hearing office productivity and processing times,   submission of evidence at least 5 days before the
          we interviewed the Chief ALJ, 9 Regional Chief      hearing to ensure the ALJ has time to review
          ALJs, 143 ALJs, and 146 hearing office staff        the evidence. After the NPRM was issued, the
          in 49 hearing offices. Our interviews disclosed     Commissioner requested that we evaluate the
          that ALJs had both high and low levels of           extent to which delays in the submission of
          productivity for reasons such as motivation and     evidence affects the timeliness of the appeals
          work ethic. We also identified factors that were    process.
          part of the case adjudication process, including    In response to his request, we reviewed
          disability determination services’ (DDS) case       information in the Office of Disability
          development, staff levels, hearing dockets,         Adjudication and Review’s (ODAR) Case
          favorable rates, individual ALJ preferences, and    Processing and Management System related to
          Agency processes.                                   the receipt of medical evidence and scheduling
          Chief ALJs use management tools and practices       of hearings. Our review found no evidence that
          to oversee ALJ performance. While SSA can take      the late submission of medical evidence was a
          disciplinary actions against ALJs, the actions      significant issue affecting the timeliness of case
          taken in the past 3 years have been primarily       adjudication. We reviewed all medical evidence
          related to conduct rather than performance.         delays in the hearing process, as well as claimant-
          However, two pending actions and one recent         related issues before the hearing. We did find
          reprimand against ALJs involve issues related       that as much as 7.2 percent of the workload
          to performance.                                     in-process was significantly delayed because of
                                                              late medical evidence. However, since most of
          We did not make any recommendations.                these medical evidence issues occur before the
          However, SSA has undertaken 37 initiatives to       claimant’s hearing is scheduled, they are neither
          eliminate the backlog and prevent its recurrence.   directly associated with the medical evidence


10   •  Impact                                                                 April 1 – September 30, 2008
                                                                     Semiannual Report to Congress




problems noted in the NPRM nor likely to              preferred mode for filing for retirement; and (4)
be remedied by the hearing process changes            continue testing kiosk terminals and computers
proposed in the notice. We did not make any           in field office reception areas. SSA generally
recommendations.                                      agreed with our report and its findings.

Quick Response Evaluation: The Social                 Social Security Number Misuse for Work
Security Administration’s Electronic                  and the Impact on the Social Security
Government Services                                   Administration’s Master Earnings File
We conducted this review to determine                 In this audit, we determined (1) whether wage
SSA’s electronic services (eServices) that are        items associated with SSN misuse for work
currently available to the public and determine       purposes were being erroneously posted to the
how future eServices can be expanded. We              Master Earnings File (MEF), SSA’s repository
focused our review on the Internet retirement         for earnings data; and (2) whether SSA had
application portion of SSA’s Internet Social          established effective controls to detect such
Security Benefit Application.                         postings and prevent future occurrences.
We interviewed operations supervisors in              We found that for Tax Year 2004, SSA removed
54 SSA field offices on their experiences in          from the MEF approximately 111,000 wage
processing Internet benefit applications. We          items for about 49,000 numberholders (NH),
also compared SSA’s available online services         representing about $1.1 billion in wages
and usage rates with other Federal agencies.          from 36,000 employers. SSA had procedures
As of the end of FY 2007, SSA had provided            to assist NHs whose identities were being
17 eServices to the public. Its Internet retirement   misused, such as placing fraud indicators on
application has been available for about 8 years,     their records and issuing new (different) SSNs.
but as of March 2008, only 13.6 percent of            However, the correspondence sent to these
SSA’s FY 2008 retirement applications were            individuals neither advised them about the
filed online. SSA has plans to expand its online      effects of SSN misuse nor encouraged them
services. However, the Agency must overcome           to report suspected misuse to the Federal Trade
several challenges to meet its Internet services      Commission and law enforcement.
goals including increasing its use, implementing
                                                      We also found that SSA needed to strengthen
planned enhancements, and addressing critical
                                                      its controls to help prevent SSN misuse
issues.
                                                      from continuing once identified. We found
While SSA has a history of providing face             the Agency’s employer correspondence
to face service, it is desirable given budget         processes and employer liaison services did
constraints and technological opportunities           not inform employers about potential SSN
that SSA expand its electronic services to            misuse cases. Further, the Agency had not
meet increased demand. We made several                established an automated process that would
recommendations, including that SSA (1)               remove subsequent wage items associated
determine what would be required to make              with SSN misuse. We recommended that
online filing more attractive; (2) use larger         SSA (1) revise the correspondence sent to
customer focus groups to test proposed online         NHs who disclaim wages; (2) generate a
screens; (3) promote the online process as the        standard letter to employers notifying them of



April 1 – September 30, 2008                                                                          Impact  •  11
          Semiannual Report to Congress




             employees with disclaimed wages; (3) provide        against offenders. These investigative efforts
             disclaimed wage information to Employer             impact SSA program integrity by deterring
             Service Liaison Officers; and (4) consider          those contemplating fraud against SSA in
             the development of a cost-effective method          the future. Our work in the areas of program
             to automatically post subsequent wage items         fraud, enumeration fraud, SSN misuse, and
             that have the same characteristics of previously    employee misconduct ensures the reliability of
             disclaimed wage items. SSA agreed with our          SSA programs and their future operations.
             recommendations.

             Investigative Impact Initiatives
             OI examines and investigates allegations of
             fraud, waste, abuse, and mismanagement
             in SSA programs and operations. These
             allegations may involve benefit fraud, SSN
             misuse, violations by SSA employees, or
             fraud related to grants and contracts. Our
             investigations often result in criminal or civil
             prosecutions and the imposition of CMPs



                                          FY 2008 Investigative Results

                                              10/01/07 – 3/31/08         4/01/08 – 9/30/08       FY 2008

                     Allegations Received                 52,381                    68,950        121,331
                            Cases Opened                   5,122                     5,203         10,325
                             Cases Closed                  5,417                     5,176         10,593
                                   Arrests                 1,078                       800          1,878
                 Indictments/Informations                       695                    595          1,290
                      Criminal Prosecutions                     946                  1,157          2,103
                               Civil/CMPs                       221                    251            472




12   •  Impact                                                                 April 1 – September 30, 2008
                               Semiannual Report to Congress




April 1 – September 30, 2008                             Impact  •  13
          Semiannual Report to Congress




                                        Allegations Received by Source
                                                10/01/07 – 3/31/08 4/01/08 – 9/30/08      FY 2008

                           Law Enforcement                20,092             23,772             43,864

                            SSA Employees                 12,874             21,038             33,912

                            Private Citizens               8,537             11,029             19,566

                                Anonymous                  6,293              9,903             16,196

                                      Other                2,979              1,714              4,693

                               Beneficiaries               1,000              1,027              2,027

                             Public Agencies                 606                467              1,073

                                   TOTAL                  52,381             68,950           121,331



                                       Allegations Received by Category
                                                10/01/07 – 3/31/08 4/01/08 – 9/30/08      FY 2008

                               SSI Disability             20,488            27,526              48,014

                         Disability Insurance             18,134            24,344              42,478

                                        SSN                5,785              8,434             14,219

                 Old-Age, Survivors Insurance              3,364              3,897              7,261

                                       Other               2,716              3,619              6,335

                                   Employee                1,430               582               2,012

                                    SSI Aged                 464               548               1,012

                                    TOTAL                 52,381            68,950             121,331



14   •  Impact                                                             April 1 – September 30, 2008
                                                                Semiannual Report to Congress




Employee Fraud: SSA Employee                      electronic monitoring and 3 years’ probation.
Convicted in Fraud Scheme Involving               In addition, the employee was ordered to
SSA’s National 800 Number                         refrain from employment with a government
                                                  agency where she would be responsible for
Our New York office investigated an SSA issuing identification documents or other
teleservice representative for altering the credentials. SSA terminated the employee in
records of at least 17 SSA beneficiaries. The January 2005.
investigation revealed that after the employee
received legitimate telephone calls from Title II Employee Fraud: SSA Employee
beneficiaries, she then called the SSA national Convicted of Concealing Living
800 number to change the beneficiaries’ direct Arrangements From SSA
deposit information to either a bank or a pre-
paid debit card account. After querying SSA Our Charleston, West Virginia office
records to ascertain that the benefit payment investigated an SSA employee for failing
was diverted into that account, the employee to notify SSA that she and her spouse, an
reinstated the original FI information.           SSI disability recipient, had resumed living
                                                  together. We found that the employee and
The former employee pled guilty to wire fraud, her spouse separated in March 2002, but
and was sentenced in June 2008 to time served reconciled in July 2002. The employee’s
followed by 2 years of supervised release and wages affected her spouse’s SSI payments. He
community service. She was also ordered received $26,018 in SSI payments to which he
to pay restitution of $22,556 to SSA. The was not entitled.
employee resigned in June 2007.
                                                  The employee and her spouse pled guilty
Employee Fraud: SSA Employee                      to conspiracy, aiding and abetting, theft of
Convicted of Fraudulently Issuing SSN             Government funds, and misprision of a felony.
Cards                                             They were sentenced in April 2008 to 5 years’
                                                  probation, and were ordered to jointly pay
Based on a referral from SSA’s Center for restitution of $26,018 to SSA. The employee
Security and Integrity in New York, our resigned from SSA in April 2007.
Iselin, New Jersey office investigated an SSA
employee involved in the fraudulent issuance of
Social Security cards. In May and June 2004, Fugitive Felon Program
the employee fraudulently issued five Social The OIG’s Fugitive Felon Program identifies
Security cards to various individuals. One fugitive felons and parole and probation
of the individuals was illegally residing in violators through automated data matches
the U.S. with an outstanding warrant for between SSA’s beneficiary rolls and Federal
his deportation. Another individual was a and State warrant databases. The impact of
previously deported felon who had illegally this program reaches beyond Social Security
re-entered the country.                           to local communities across the United States.
In April 2008, after pleading guilty to bribery Our data-sharing efforts with local, State, and
of a public official, the former employee was Federal law enforcement agencies contributed
sentenced to 12 months’ home confinement with to the arrest of over 5,400 fugitives during this



April 1 – September 30, 2008                                                                       Impact  •  15
          Semiannual Report to Congress




                 reporting period, over 12,100 in FY 2008,          force was directed toward the apprehension of
                 and over 71,000 arrests since the program’s        offenders who commit felonies involving guns
                 inception in 1996. The following are highlights    and drugs and represent a high risk to public
                 of our fugitive felon activities during the past   safety in the Detroit metropolitan area.
                 6 months.

                 Fugitive Felon Program: Murder Suspect
                                                                    Cooperative Disability
                 Arrested in Louisiana                              Investigative Program
                 Agents from our Baton Rouge, Louisiana                                         Our         CDI
                 office worked with Louisiana State and local                                   P r o g r a m
                 police to arrest a man residing in Bogalusa,                                   continues to
                 Louisiana who was wanted for second-degree                                     be one of our
                 murder and distribution of a controlled                                        most successful
                 dangerous substance. The original warrant                                      initiatives,
                 was issued in March 2008. At the time of his                                   contributing to
                 arrest, the suspect had a pending application                                  the integrity of
                 for Title II disability benefits.                                              SSA’s disability
                                                                   programs. CDI is a joint effort of the
                 Fugitive Felon Program: Suspect                   OIG, SSA, DDS, and State and local law
                 Charged with 20 Counts of Child                   enforcement personnel. Our 19 CDI Units in
                 Molestation in Texas Arrested in Seattle          17 States work to obtain sufficient evidence to
                 Agents from our Seattle office, working with identify and resolve issues of fraud and abuse
                 the U.S. Marshals’ Fugitive Task Force in related to initial and continuing disability
                 Seattle, arrested a suspect wanted in Comal claims. The following table highlights the
                 County, Texas on 20 counts of aggravated successes of the CDI program, which yielded
                 sexual assault on a child. Due to the seriousness over $108 million in SSA program savings
                 of the charges, bail for the suspect was set for during this reporting period, and more than
                 $1,050,000. Extradition proceedings were $214 million during FY 2008.
                 initiated to return the suspect to Texas to
                 face the charges.

                 Fugitive Felon Program: Suspect
                 Arrested by Task Force Targeting Guns,
                 Drugs, and Gang Enforcement Project in
                 Michigan
                 Agents from our Detroit office, along
                 with Wayne County Sheriff Task Force
                 investigators, arrested a suspect on a weapons
                 offense. The outstanding warrant was dated
                 February 2002. The project was part of the
                 Wayne County Sheriff ’s Office Guns, Drugs,
                 and Gang Enforcement Task Force. This task


16   •  Impact                                                                    April 1 – September 30, 2008
                                                                       Semiannual Report to Congress




        Cooperative Disability Investigative Program Results
                                   April 1 – September 30, 2008
  State                            Allegations      Confirmed            SSA           Non-SSA
                                    Received       Fraud Cases          Savings1       Savings2
  Arizona                                    111               92        $6,166,184      $1,835,420
  California3                                510              344       $19,651,895     $15,180,687
  Colorado                                    90               68        $4,522,000      $1,590,384
  Florida                                     58               54        $2,832,780      $2,437,356
  Georgia                                    131              100        $6,829,180      $1,873,876
  Illinois                                    61               53        $3,203,830      $1,283,045
  Louisiana                                   74               49        $3,175,140      $1,814,532
  Massachusetts                               81               64        $4,112,854      $1,805,800
  Missouri                                   102               56        $3,656,464      $1,268,580
  New Jersey                                  87               53        $3,591,000      $2,926,880
  New York                                   163              155        $8,686,804      $7,976,724
  Ohio                                       368               82        $5,160,560      $2,986,050
  Oregon                                     167              127        $8,434,980      $7,361,460
  Tennessee                                  113               87        $5,687,916      $2,878,640
  Texas4                                     267              153       $10,161,808      $4,877,902
  Virginia                                    95               71        $4,721,500      $4,313,331
  Washington                                 113              135        $7,988,282      $6,469,535
  Totals                                   2,591            1,743      $108,583,177     $68,880,202
      4/1/2008 – 9/30/2008
  Totals                                   2,349            1,721      $106,056,017     $68,681,574
  10/1/2007 – 3/31/2008
   FY 2008 Grand Totals               4,940            3,464          $214,639,194    $137,561,776

  1
   SSA program savings are reported at a flat rate of $66,500 for initial claims that are denied as a
  result of CDI investigations. When a CDI investigation supports the cessation of an in-pay case,
  SSA program savings are calculated by multiplying the actual monthly benefit times 60 months.
  2
   Non-SSA savings are also projected over 60 months whenever another governmental program
  withholds benefits as a result of a CDI investigation, using estimated or actual benefit amounts
  documented by the responsible agency.
  3
      California has two units, one in Los Angeles, and the other in Oakland.
  4
      Texas has two units, one in Dallas, and the other in Houston.




April 1 – September 30, 2008                                                                            Impact  •  17
          Semiannual Report to Congress




                 The following CDI case summaries highlight       incorrect and the income was from “sales of
                 major investigations we conducted during         existing inventory.”
                 this reporting period which enhanced SSA
                                                                  However, when our CDI Unit investigators
                 program integrity and the reliability of SSA’s
                                                                  interviewed the claimant, he stated that he was
                 operations.
                                                                  working at a custom home job site hanging
                 CDI: Accountant Conceals Employment              cabinets. The man indicated that he was the
                 to Obtain Disability Benefits                    owner of the construction company and went
                                                                  back to work the previous year on a limited
                 An investigation conducted by our Cleveland      basis. The man voluntarily provided a written
                 CDI Unit revealed that a Title II disability     statement regarding his business and the
                 beneficiary concealed his employment. From       unreported work.
                 September 1998 – September 2005, the
                 man was actively working as an accountant        The man’s Title II disability benefits were
                 from his home. SSA determined that the           terminated. In addition, SSA assessed a
                 man and his dependents were overpaid             $14,641 overpayment to the man’s record,
                 $116,135. In addition, the man obtained a        and he agreed to repay the money.
                 federally subsidized student loan for one of
                 his children.                                    CDI: Company Owner Fraudulently
                                                                  Collects $104,501 in Title II Benefits
                  The man pled guilty to Social Security fraud
                                                                 Our Baton Rouge CDI Unit, acting on a
                 and was sentenced in June 2008 to 12 months’
                                                                 referral from the Morgan City, Louisiana
                 incarceration. He was also ordered to pay
                                                                 SSA office, investigated a Title II beneficiary
                 restitution of $116,135 to SSA and $6,368
                                                                 receiving disability benefits due to disorders
                 to the Department of Education.
                                                                 of the autonomic nervous system. Our
                 CDI: Construction Company Owner                 investigators found evidence showing that
                 Fraudulently Receives SSA Benefits              from January 1997 – February 2007, the
                                                                 man owned and operated his own business,
                 Our St. Louis CDI Unit investigated a 49- year- and made numerous false statements to SSA
                 old man who had been receiving Title  II denying his employment.
                 disability benefits since September 2004
                 due to leg fractures suffered in a motorcycle In July 2008, after pleading guilty to theft of
                 accident. SSA contacted the man regarding Government funds, the man was sentenced
                 self-employment earnings posted to his record, to 13 months’ imprisonment and 3 years of
                 but he claimed that the earnings belonged to supervised release. In addition, he was ordered
                 his spouse. The man amended his tax returns to pay restitution of $104,501 to SSA.
                 for the past 4 years showing his wife as the
                 sole proprietor of the family’s construction CDI: Disability Applicant Found
                 company, but State records indicated the Working in Clinic, Riding Motorcycles
                 man was the registered agent of the business. Our Seattle CDI Unit investigated a 37- year-
                 SSA again contacted the man about his old woman who applied for Title II and SSI
                 employment and was advised, in writing, that disability benefits due to depression, memory
                 the self-employment earnings posted were problems, hearing problems, and night terrors.
                                                                 The woman reported that she was unable


18   •  Impact                                                                   April 1 – September 30, 2008
                                                            Semiannual Report to Congress




to perform any physical activities. She also conducting an investigation on the woman’s
reported alleged that her significant other significant other, who is currently receiving
helped her with all daily functioning, and disability benefits.
indicated that her disabilities had rendered
her unable to work since 2002.
Witness interviews revealed that the woman
and her significant other were active in riding
motorcycles, boating, and were observed
hitching and unhitching a boat. Our
investigation found that the woman’s significant
other had received Title II disability benefits
since 2002 for a back impairment. After further
investigation, it was revealed that the woman
and her significant other both worked at a foot
and ankle clinic.
The Washington State DDS denied the
woman’s claim for Title II and SSI disability
benefits. In addition, the Seattle CDI Unit is




April 1 – September 30, 2008                                                                Impact  •  19
         Semiannual Report to Congress




              Value                                             Automated Teller Machine (ATM) withdrawal
                                                                records, to help identify SSI recipients who
              The second goal of the OIG Strategic Plan may be accessing their SSI payments outside
              is Value. All OIG initiatives strive to provide the United States. We initiated this review to
              value to SSA, the Congress, other key decision determine whether ATM withdrawal data
              makers, and the public by delivering timely and could be used to identify SSI recipients who
              reliable audit, investigative, and legal products were outside the U.S. for more than 30 days
              and services. To achieve the intended value, which would render them ineligible for benefits
              these products and services must effectively for that period of time.
              meet the needs of all whom we serve while
                                                                We obtained a file of all foreign-born United
              maximizing our available resources. To do
                                                                States citizens receiving SSI payments via direct
              this, we integrate best-practice strategies
                                                                deposit as of May 2006. Then, we randomly
              and the newest technologies to increase our
                                                                selected 250 SSI recipients from one of the
              productivity and maximize our return on
                                                                most commonly used banking institutions.
              investment to the public.
                                                                Based on our sample results, we estimated
                                                                that overpayments totaling approximately
              Value Attained Through                            $226.2 million went undetected because about
              Audits                                            40,560 recipients did not inform SSA of their
                                                                absence from the United States. Additionally,
              Many of our audits are focused on identifying we estimated that SSA will continue to not
              SSA programmatic and operational areas detect approximately $100.5 million each year
              where funds could be put to better use. In if action is not taken.
              addition, we often question approaches and
              their accompanying costs, and we recommend SSA relies on individuals self-reporting
              alternatives to yield program and operational their absences from the United States, but
              savings.                                          because reporting such events may result in
                                                                ineligibility for SSI payments, there is no
              During this reporting period, our auditors incentive for recipients to report. Therefore,
              issued 68 reports, identifying over $1.7 billion we recommended, and SSA agreed, to assess
              in questioned costs and over $808 million the feasibility of obtaining electronic bank
              in Federal funds that could be put to better statement information to include transaction-
              use. Some of our most notable audits are level data so that foreign transactions may
              summarized below.                                 be identified and investigated for possible
                                                                residency violations.
              Supplemental Security Income Recipients
              with Automated Teller Machine           Supplemental Security Income Recipients
              Withdrawals Indicating They Are Outside with Excess Income and/or Resources
              the United States                       In this audit, we assessed whether bank data
              In July 2003, the Government Accountability       can be used to identify SSI recipients who may
              Office recommended that a study be done           have income and/or resources that exceed the
              on the feasibility of expanding the type of       allowable limits. Generally, individuals with
              information that SSA obtains from FIs, such as    countable resources of more than $2,000



20 •  Value                                                                    April 1 – September 30, 2008
                                                                    Semiannual Report to Congress




in any given month are not eligible for SSI          to the WC offset calculation. Based on this
payments for that month.                             error rate, for the 21,976 redeterminations
                                                     in our population, we estimate approximately
Based on our sample results, we estimated that       1,670 DI claims totaling about $19.3 million
SSA failed to detect overpayments totaling           had payment errors related to the WC offset
approximately $408.9 million because 68,966          calculation. Also, 16 of the 24 redetermination
recipients did not inform SSA of their changes       claims had payment errors that continued after
in income and/or resources. Additionally, we         August 1, 2007. Accordingly, we estimated that
estimated SSA will not detect approximately          for the 12 months following our audit period,
$169.2 million each year to recipients who have      approximately 1,406 claims had payment errors
income and/or resources above the maximum            totaling about $4.8 million.
allowable amounts, if the Agency does not take
action.                                         We also found that SSA’s controls for
                                                monitoring the accuracy and completion of
Therefore, we recommended SSA obtain redeterminations could be improved. Specifically,
electronic bank statement information so that 81 (32.4 percent) of the 250 DI claims lacked
excess income and resources may be identified proof of current WC rates. Although SSA
and investigated for possible violations. SSA obtained current WC documentation for 28
partially agreed with the recommendation. of these claims at our request, we could not
Moreover, the Agency is in the planning and test the accuracy of the redeterminations for
analysis phase of a project called Access to the 53 remaining claims. Additionally, we did
Financial Institutions, which could enable not find evidence that SSA completed 35 of
SSA to obtain and analyze electronic bank data these 53 claims.
and use it to identify possible income/resource
violations.                                     We recommended that SSA (1) issue a
                                                reminder to staff that all current WC benefits
Accuracy of Title II Disability Insurance       be documented and (2) improve controls for
Benefit Triennial Redeterminations for          monitoring the redetermination process. SSA
2006                                            agreed with our recommendations.
Workers injured on the job may qualify for           Underpayments Payable on Behalf of
Disability Insurance (DI) benefits in addition       Terminated Title II Beneficiaries
to workers’ compensation (WC) benefits.
However, Federal law requires that SSA offset  In this audit, we determined whether SSA had
DI benefits against WC benefits, by computing  taken appropriate actions to pay underpayments
                                               on behalf of terminated beneficiaries. SSA
the beneficiary’s average current earnings every
                                               policy states that an underpayment due a living
3 years. In this audit, we determined the accuracy
of the Title II Triennial Redeterminations SSA beneficiary will be paid to the beneficiary or
performed in 2006.                             representative payee, and that an underpayment
                                               due to a terminated beneficiary should be issued
We found that SSA did not consistently process to the beneficiary’s or representative payee’s last
these redeterminations accurately. In fact, we address on record.
found 24 (9.6 percent) of the 250 sampled
DI claims had payment errors. Of those, 19 Based on our review, we estimated that
had payment errors totaling $219,610 related SSA needed to take corrective actions


April 1 – September 30, 2008                                                                           Value  •  21
         Semiannual Report to Congress




              to pay approximately $358.7 million in             applicants to report whether they are receiving
              underpayments payable to 391,844 eligible          or will in the future receive a pension based
              beneficiaries and individuals. We also found       on non-covered earnings. Our audit found
              that SSA needed to remove from its payment         that SSA needs to improve its controls and
              records about $86.7 million in erroneous           procedures to ensure that the GPO and WEP
              underpayments for 109,712 terminated               are properly imposed. Specifically, our review
              beneficiaries. We found that these payment         identified an estimated 8,500 beneficiaries
              errors occurred because SSA did not always         who were overpaid about $269.8 million in
              take appropriate actions to locate beneficiaries   retirement benefits because WEP was not
              or eligible individuals, manually process          properly applied and 8,460 beneficiaries who
              underpayment alerts, retain documentation of       were overpaid about $184.8 million in spousal
              corrective actions taken, or review its records    benefits because GPO was not properly
              for prior underpayments.                           imposed. Finally, unless SSA takes corrective
                                                                 action to identify and correct these payment
              We made several recommendations for SSA to errors, we estimate it will pay approximately
              improve its controls and procedures to ensure $53.2 million in overpayments annually.
              it appropriately pays underpayments on behalf These errors occurred because SSA did not
              of terminated beneficiaries. SSA agreed with have controls in place to ensure the pension
              most of our recommendations. However, information it maintained for dually entitled
              SSA disagreed with our recommendation to beneficiaries was annotated to all its records.
              revise its underpayment procedures, citing
              budgetary constraints and the legal sufficiency We made four recommendations to SSA,
              of its efforts to obtain valid addresses to locate including that it (1) identify and take corrective
              individuals.                                       action on the population of dually entitled
                                                                 beneficiaries who may be overpaid because
              Dually Entitled Beneficiaries Who Are              WEP or GPO was not properly imposed;
              Subject to Government Pension Offset               and (2) take corrective action to establish
              and the Windfall Elimination Provision             overpayments for the beneficiaries identified
              In this audit, we determined whether SSA by our audit or determine whether a GPO or
              properly imposed the Government Pension WEP exception applies. SSA agreed with our
              Offset (GPO) and the Windfall Elimination recommendations.
              Provision (WEP), which offset benefits             Title II Benefits to Fugitive Felons and
              to some individuals based on receipt of a          Probation or Parole Violators
              Government pension from employment not
              covered by Social Security. This audit looked      In this audit, we quantified the savings
              at dually entitled beneficiaries, who received     achieved as a result of the suspension of Title
              both spousal benefits and benefits based on        II benefits to fugitive felons and probation or
              their own earnings. These beneficiaries are        parole violators. Beginning January 1, 2005, the
              subject to both the GPO and WEP.                   Act prohibits the payment of Title II benefits
                                                                 to a beneficiary who, for a period of 30 days or
              To identify individuals who may be subject
                                                                 more, is fleeing to avoid prosecution, custody, or
              to WEP and GPO, SSA primarily relies on




22 •  Value                                                                      April 1 – September 30, 2008
                                                                     Semiannual Report to Congress




confinement for a felony—or to a beneficiary        the Ticket Program led to sustained economic
who is violating probation or parole—unless         self-sufficiency for disabled beneficiaries and
the Agency determines that good cause exists        determined whether the program generated
for paying such benefits.1                          savings for SSA.
We estimate that the Title II program               SSA made a Ticket Program-related payment
saved about $404.3 million through March            in FY 2005 for approximately 3,800 of the
2008 due to benefits suspension to fugitive         10 million beneficiaries, or less than one-tenth
felons and probation or parole violators.           of 1 percent, who had received a Ticket by the
This includes (a) $47.3 million in benefit          beginning of FY 2005. These roughly 3,800
overpayments recovered from the fugitives; (b)      Ticket Program participants appeared to
$218.6 million in ongoing monthly benefits          have limited success in maintaining economic
that was withheld; and (c) $138.4 million in        self-sufficiency. Approximately one-third of
monthly benefits that was withheld while the        them did not have earnings from work from
beneficiaries were incarcerated. In addition, we    October 2004 – December 2006. Of the
estimate that SSA had the potential to save an      remaining two-thirds who had earnings for
additional $249.6 million as of March 2008.         at least some of these months, half were not
This includes (a) $89.5 million in benefits         employed as of December 2006.
that will likely be withheld over the next
                                                    Beneficiaries who participated in the Ticket
12 months from beneficiaries whose warrants
                                                    Program and disabled beneficiaries who
remain unsatisfied; and (b) $160.1 million
                                                    received vocational services outside the
in benefit overpayments that had not yet
                                                    Ticket Program showed similar work activity
been recovered from the fugitives. Finally,
                                                    patterns. While the two groups had similar
we estimate that SSA did not save/recover
                                                    outcomes, SSA incurred additional costs for
approximately $60.3 million, which included
                                                    the Ticket Program. It appeared the Ticket
$41.8 million in unrecovered overpayments
                                                    Program implementation neither increased
and $18.5 million that SSA will not recover
                                                    the percentage of disabled beneficiaries who
because of the Fowlkes v. Adamec decision
                                                    returned to work, nor realized the outcomes
in the 2nd Circuit. We did not make any
                                                    and savings envisioned by Congress.
recommendations.
                                                  We recommended that SSA (1) evaluate the
Ticket to Work and Self-Sufficiency               continued viability of the Ticket Program and
Program Cost Effectiveness                        (2) work with Congress to reform or end the
The Ticket to Work Program was established Ticket Program if the Agency determines it
by the Ticket to Work and Work Incentives is not having the desired impact and/or it
Improvement Act of 1999 to promote is not cost-effective. SSA agreed with our
the economic self-sufficiency of disabled recommendations.
beneficiaries. In this audit, we assessed whether


1
 As a result of a ruling in the 2nd Circuit Court of Appeals, in the matter of Fowlkes v. Adamec, SSA
is no longer suspending Title II payments to fugitive felons residing in the Second Circuit.



April 1 – September 30, 2008                                                                            Value  •  23
         Semiannual Report to Congress




              Value Attained Through                           with over $31 million in SSA recoveries,
                                                               restitution, fines, and settlements/judgments,
              Investigations                                   and over $138 million in projected savings
                           During this reporting period, from investigations resulting in the suspension
                           the efforts of our investigators or termination of benefits.
                           yielded significant results arising The table below represents the efforts of OI
                           from the successful prosecution personnel nationwide to recover SSA funds
                           of cases that we developed. paid in fraudulent benefits or through other
                           Our investigators achieved over illegal actions.
              $170 million in investigative accomplishments,


                                               SSA Funds Reported

                                           10/01/07 – 3/31/08    4/01/08 – 9/30/08        FY 2008


                              Recoveries          $23,576,850          $16,463,364        $40,040,214

                                   Fines            $2,383,206         $2,898,795          $5,282,001

                Settlements/Judgments                $605,530          $1,027,212          $1,632,742

                             Restitution          $11,635,333        $11,339,812          $22,975,145

                     Estimated Savings           $162,227,111       $138,354,986         $300,582,097

                                TOTAL           $200,428,030       $170,084,169        $370,512,199


              The following case summaries are indicative    Amarillo, Texas SSA office. We determined
              of the more than 5,000 investigations that     that the 61-year-old man escaped from the
              we closed during this reporting period.        Florida Department of Corrections in 1975
              The cases we have highlighted illustrate       after serving 7 years of an 11-year sentence
              the many instances where our investigative     for burglary and grand theft. After his escape,
              efforts have resulted in a significant return on
                                                             the man assumed the identity of a Texas
              investment.                                    resident. Under the assumed identity, the
                                                             man was convicted of attempted murder and
              SSN Misuse: Fugitive Attempts Murder was incarcerated for 26 years in Louisiana.
              While Using a False Identity                   Upon release from prison in 2003, the man
              Our Baton Rouge, Louisiana office investigated continued to use the false name and SSN
              a man based on a referral received from the to prevent discovery of his fugitive status in



24 •  Value                                                                   April 1 – September 30, 2008
                                                                  Semiannual Report to Congress




Florida. Subsequently, the man was arrested SSN Misuse: Man Uses Individuals’ PII
based on a Florida fugitive warrant. In addition, to Obtain Replacement Credit Cards
he was charged in Louisiana for maintaining
false public records.                             Our New York office conducted a joint
                                                  investigation with the United States Postal
In July 2008, after pleading guilty to the Inspection Service, the United States Secret
Louisiana charge, the man was sentenced to Service, and the Federal Bureau of Investigation
2 years’ incarceration. Upon his completion involving a man who fraudulently obtained
of the Louisiana sentence, the man will be credit cards for existing accounts. Using the
extradited to Florida to serve the remainder account holder’s name, date of birth, and Social
of his sentence with the Florida Department Security number, as well as credit information
of Corrections, as well as face pending charges obtained over the Internet, the man posing as
related to his escape from prison in Florida. the account holder would contact the credit
                                                  card company and request a replacement card.
SSN Misuse: Manager of Auto                       He would then use the fraudulently obtained
Dealership Uses Customers’ Identities to          credit cards to purchase goods on the Internet
Open Fraudulent Accounts                          which he would then sell at a discounted
Agents from our Kansas City office, U.S. Postal rate.
Inspection Service, U.S. Secret Service, and the   In April 2008, after pleading guilty to credit
St. Louis, Missouri Police Department (PD)         card fraud and aggravated identity theft, the
participated in a joint investigation conducted    man was sentenced to 24 months’ incarceration
by the St. Louis Identity Theft Task Force.        and 3 years’ supervised release. In addition, he
An allegation was received from the Missouri       was ordered to make restitution of $125,000
PD alleging that a floor manager in a local        to various FIs.
automobile dealership was using customers’
identities to open fraudulent credit accounts.     Representative Payee Fraud: Personal
During an interview, the dealership manager        Care Owner Diverts $350,000 of
admitted to using at least four customers’         Residents’ SSA Funds
identities to obtain credit cards. Also, the
manager stated that he targeted customers over  Agents from our Philadelphia office investigated
the age of 70, because he believed that they    the owner-operator of multiple personal
would die before the fraud was discovered.      care homes throughout Philadelphia. Our
                                                investigation determined that the owner was
The man pled guilty to aggravated identity the representative payee for various residents
theft and fraudulent use of an unauthorized of the homes, and that the residents were
access device and was sentenced in April subjected to structurally unsafe residences,
2008 to 36 months’ incarceration and 3 years’ inadequate personal care, and unsanitary and
supervised release. In addition, he was ordered substandard living conditions. Additionally,
to pay restitution of $20,810 to various FIs. the representative payee diverted $350,000
                                                in Social Security payments designated for
                                                the care of the residents to her own use and
                                                benefit.




April 1 – September 30, 2008                                                                          Value  •  25
         Semiannual Report to Congress




          In June 2008, the representative payee signed       investigated the mother and representative payee
          a civil settlement agreement agreeing to never      of a child receiving SSI disability benefits. The
          again own or operate a residential care facility.   investigation revealed that the representative
          Additionally, she agreed to a monetary settlement   payee failed to notify SSA of her marriage and
          payment of $700,000 in damages to the Federal       the receipt of child support payments.
          Government. SSA will receive $350,000 of the
                                                              In July 2008, after pleading guilty to
          settlement.
                                                              representative payee misuse, the woman was
          Representative Payee Fraud:                         sentenced to 1 month in prison and 5 months’
          Organizational Representative Payee                 home confinement, and 3 years’ supervised
          Employee Steals $247,078                            release. She was also ordered to pay restitution
                                                              of $72,692 to SSA.
          Acting on a request for assistance received
          from the U.S. Secret Service, our Jacksonville,     Disability Program Fraud: Man Assumes
          Florida office investigated an organizational       Half-Brother’s Identity
          representative payee employee and her
                                                            Our Baltimore office initiated this investigation
          accomplice. The organizational representative
                                                            based on a referral received from the Baltimore
          payee served as the payee for numerous Title II
                                                            (Rossville) Maryland SSA office. The
          and SSI beneficiaries in the Savannah, Georgia
                                                            investigation revealed that a man stole the
          area. From October 2003 to June 2007, the
                                                            identity of his half-brother to conceal his own
          employee transferred approximately $247,078
                                                            criminal history. Later, using his half-brother’s
          from the organizational representative payee
                                                            name and SSN, he obtained Title II disability
          accounts to her accomplice. Once these funds
                                                            benefits and auxiliary benefits for his wife and
          were negotiated, the employee received kickbacks
                                                            two children. SSA determined that the man
          from the accomplice.
                                                            and his family fraudulently received $216,797
          The employee pled guilty to theft of Government in SSA benefits.
          funds, and was sentenced in June 2008 to 4 years’
          incarceration and 3 years’ supervised release. The man pled guilty to theft of Government
          The accomplice also pled guilty to theft of money, and was sentenced in July 2008 to
          Government funds, and was sentenced in July 5 years’ probation and was ordered to pay
          2008 to 27 months’ incarceration and 3 years of partial restitution of $60,532 to SSA. He was
          supervised release. Both were ordered to make also ordered to pay restitution of $3,707 to his
          joint restitution of $200,000 to an insurance half-brother.
          company and $47,078 to the organizational Disability Program Fraud: Woman Uses
          representative payee. The organizational Spouse’s Benefits During His Incarceration
          representative payee refunded the $247,078 to
          SSA.                                              Our Clearwater, Florida office conducted an
                                                            investigation of an SSI disability recipient for
          Representative Payee Fraud: Mother of concealing information from SSA. The woman
          Disabled Child Conceals Marriage and failed to report that she shared a joint bank
          Income                                            account with her husband who, from April 2001
          Acting on a referral from the Petersburg, – November 2006, fraudulently received Title
          Virginia SSA office, our Richmond office II disability benefits while incarcerated. The


26 •  Value                                                                   April 1 – September 30, 2008
                                                                  Semiannual Report to Congress




failure to notify SSA of the bank account and Deceased Payee Project: Daughter
her continued use of her husband’s income Accesses Deceased Mother’s Bank Account
resulted in an overpayment of $102,073.
                                                     Our New York office initiated this investigation
In June 2008, the woman entered into a pretrial as part of our National Deceased Payee Project,
diversion agreement, which required the woman which identifies widows and widowers of Title
to make full restitution to SSA.                     II beneficiaries whose benefits continued to
                                                     be paid after their death. This investigation
Disability Program Fraud: Website                    confirmed that a widow receiving Title II
Operator Conceals Income                             benefits died in January 2003, and her benefits
Acting on a referral from the Gilroy, California continued to be directly deposited into her bank
SSA office, our Fairfield, California office account through May 2007. The deceased’s
conducted an investigation of a Title II disability daughter fraudulently accessed her mother’s
beneficiary for failing to report his work activity. bank account and withdrew funds totaling
The investigation revealed that from January $53,954.
2000 – December 2004, the man operated             The woman pled guilty to theft of Government
two different websites and repaired all-terrain    property, and was sentenced in April 2008
vehicles. Bank records showed that the man         to 3 years’ probation, including 6 months of
made $175,000 in unreported income.                home confinement. She was also ordered to
The man pled guilty to theft of Government         pay restitution of $53,954 to SSA.
property, and was sentenced in June 2008
                                                   Deceased Payee Project: Daughter
to 5 months in prison and 5 months’ home
                                                   Fraudulently Withdraws SSA Funds from
detention. The man was also ordered to pay
                                                   Deceased Mother’s Bank Account
restitution of $89,072 to SSA.
                                                   Investigators from our Chicago office conducted
Disability Program Fraud: Beneficiary
                                                   this investigation as part of our National
Conceals Employment from SSA and the
                                                   Deceased Payee Project. Our investigation
Department of Veterans Affairs
                                                   confirmed that Title II benefits continued to
Our agent in Swansea, Illinois investigated a be directly deposited to a widow’s bank account
Title II disability beneficiary for concealing his although she had died in September 2003. The
employment. The investigation revealed that bank identified the widow’s daughter as making
the man was employed at his father’s business, withdrawals from her mother’s account. Our
while receiving disability benefits from SSA and agents contacted the Illinois Healthcare and
the Department of Veterans Affairs (VA).           Family Services Bureau of Investigations, which
                                                   confirmed that the daughter also fraudulently
In August 2008, the man pled guilty to Social received $5,154 in food stamps, because she
Security fraud and false statements and was failed to list the Social Security income on a
sentenced to 10 months’ incarceration and 3 food stamp application.
years’ supervised release. He was also ordered
to pay restitution of $70,148 to SSA and In July 2008, after pleading guilty to theft of
$116,000 to the VA.                                Government funds, the woman was sentenced
                                                   to 5 years’ probation, with the first 6 months to
                                                   be served as home confinement. She was also


April 1 – September 30, 2008                                                                        Value  •  27
         Semiannual Report to Congress




              ordered to pay restitution of $31,790 to SSA In June 2008, after pleading guilty to theft
              and $5,154 to the State of Illinois.         of public money, the woman was sentenced
                                                           to 1 year of probation. Restitution was
              Double Check Negotiation Project:            not ordered because SSA had already
              Milwaukee Woman Claims Non-Receipt administratively recovered the overpayment
              of SSI Checks on 29 Occasions                by withholding monthly benefits.
              An investigation conducted by our
              Milwaukee office revealed that a woman
              receiving SSI disability payments had           Value Attained Through Legal
              claimed non-receipt of her benefit check,
              and then cashed both the original and
                                                              Initiatives
              replacement checks, on 29 occasions. This      OCIG’s efforts to administer that portion of
              case was opened as part of the Milwaukee       the CMP program which deals with violators
              Double Check Negotiation Project.              of Section 1129 of the Act maximize the
              During the interview with our agents,          resources available to us and create a positive
              the woman provided a sworn statement           return on investment. Section 1129 of the
              confessing to 29 offenses, totaling $13,389    Act allows for the imposition of a CMP
              in overpayments.                               against those who make false statements or
                                                             representations in connection with obtaining
              The woman pled guilty to Social Security or retaining benefits or payments under Titles
              fraud, and in July 2008 was sentenced to 2 II, VIII, or XVI of the Act. In addition, CMPs
              years’ probation. She was also ordered to pay may be used to penalize representative payees
              restitution of $3,107 to SSA (the remainder for wrongful conversion of payments made
              of the overpayment was administratively under the Social Security programs, and to
              recovered by SSA).                             penalize individuals who knowingly withhold
              Double Check Negotiation Project:              a material fact from SSA. After consultation
              Woman Convicted of Alleging Non-               with the DoJ, OCIG is authorized to impose
              Receipt of SSI Checks on 38 Occasions          penalties of up to $5,000 for each false
                                                             statement, representation, conversion, or
              Our Cleveland, Ohio office investigated omission. A person may also be subject to an
              a woman who alleged non-receipt of her assessment, in lieu of damages, of up to twice
              and her four children’s SSI checks. The the amount of any resulting overpayment.
              woman then cashed both the original and
              replacement checks on 38 different occasions, The following table and cases highlight the
              resulting in a fraud loss of $20,646. As part value achieved through our Section 1129
              of the investigation, the woman provided a efforts for this reporting period.
              written statement admitting that she cashed
              two checks for the same month on numerous
              occasions for both herself and while acting as
              representative payee for her four children.




28 •  Value                                                                April 1 – September 30, 2008
                                                                   Semiannual Report to Congress




                   False Statements Under Section 1129 Results

                           10/01/07 – 3/31/08        4/01/08 – 9/30/08             FY 2008


 Cases Received                    372                      1,771                   2,143

 Cases Initiated                   273                       234                     507

 Cases Closed                      412                       740                    1,152

 Penalties and
                               $3,089,931                $3,450,425              $6,540,356
 Assessments
 Number of Hearings
                                    16                        10                     26
 Requested

California Woman Conceals Work to                 Woman Assessed $52,227 CMP for
Collect Over $80,000 in Disability                Collecting Deceased Mother’s Benefits for
Benefits                                          3 Years
A California woman made four false statements     A Massachusetts woman who shared a bank
in documents submitted to SSA between             account with her mother continued to receive
February 2003 and March 2006 regarding            her mother’s Social Security benefits via direct
her work activity. The woman consistently         deposit into a joint account after the mother
indicated that she had not performed any work     died in October 2004 until July 2007. The
since becoming entitled to disability benefits    woman failed to notify SSA of her mother’s
in 1997. An OIG investigation revealed that       death or the continuing deposits, and she used
she worked for at least six different employers   the benefits for her own personal gain.
between 1999 and 2003. In some cases, she
                                                 We were alerted to the misuse and initiated a
had worked multiple jobs at one time.
                                                 CMP action. The woman ultimately entered
Due to her false statements, the woman into a settlement agreement in which she
received benefits totaling $81,875 for which she agreed to pay a penalty of $15,000, in addition
was not eligible. Although OCIG attempted to an assessment in lieu of damages of $37,227,
to enter into settlement negotiations with for a total CMP of $52,227.
the woman, she failed to cooperate. OCIG
attorneys eventually imposed a penalty of Man Assessed $50,000 CMP for Concealing
$10,000 and an assessment in lieu of damages Work while Receiving SSI Disability
for $81,875, for a total CMP of $91,875.         A Texas man concealed his work activity and
                                                 income to continue receiving SSI benefits.


April 1 – September 30, 2008                                                                         Value  •  29
         Semiannual Report to Congress




         The subject operated an auto repair shop in           that in order to pay her mortgage, her friends
         Texas from September 2001 – September                 had deposited money into her checking account
         2006. During this time, he attested to SSA on         for her. SSA collected official documentation
         four separate occasions that he had no income,        that indicated that her claims were false.
         no significant resources, and that he was not         Although the overpayment was only $5,900,
         working. We were alerted to the fraud and             the woman ultimately agreed to a settlement of
         initiated an investigation. Ultimately, OCIG          $34,000, which included a substantial penalty
         attorneys imposed a penalty of $20,000, and           due to the egregiousness of her numerous false
         an assessment in lieu of damages of $30,000,          statements.
         for a total CMP of $50,000. The man did not
         challenge the imposition of the penalty, and it       Representative Payee Assessed CMP
         was therefore finalized by default in August          of $35,000 for Fraudulently Collecting
         2008.                                                 Benefits
                                                               A woman who served as representative payee for
         Man Assessed $25,000 CMP for Feigning
                                                               her nephew continued to cash his SSI checks
         Disability
                                                               after he had left her custody. The payee not only
         Our Baton Rouge CDI Unit investigated a               fraudulently accepted SSI payments to which she
         31- year-old man who applied for SSI disability       was not entitled, but she also double-negotiated
         due to back, nerve, and learning disabilities.        eight of the checks; that is, she claimed she had
         The man said his condition prevented him              never received the check, and then she cashed
         from driving a car and going out alone. In            both the original and replacement checks, causing
         addition, he claimed to have trouble walking and      an overpayment. The representative payee told
         reported that he had to rest often. The Louisiana     SSA that she cared for the child “every day,”
         DDS referred this case because at a previous          and that the child only visited his father (who
         consultative examination the doctor said the          actually had custody) on the weekends. After
         claimant appeared to be malingering.                  being personally served with a CMP penalty
                                                               letter by an OIG special agent, the woman failed
         Our CDI unit investigators observed the man           to appeal a $35,000 penalty, which became final
         walking several blocks and driving a vehicle alone.   by default.
         The man appeared to drive in a confident manner
         and to have no difficulty driving or walking. In      New Jersey Nursing Assistant Agrees to
         addition, investigators were informed by local        CMP of $30,000 for Engaging in Double
         police officers that the man was frequently           Check Negotiation
         observed driving a vehicle. The DDS denied
         the claim, and in April 2008, OCIG attorneys    OCIG assessed a $30,000 penalty against a
         imposed a $25,000 CMP.                          nursing assistant in New Jersey who engaged
                                                         in double-check negotiation on behalf of her
         Woman Assessed CMP of $34,000 for               two minor children who received SSI. On nine
         Numerous False Statements                       occasions, the woman falsely stated that she had
                                                         not received her children’s SSI benefit checks. An
         Since 2003, a SSI recipient had submitted false OIG investigation revealed that the woman had
         statements to SSA regarding her marital status, endorsed and negotiated both the original and
         living arrangements, investments/resources, and replacement checks, causing a total overpayment
         income. When questioned by SSA, she stated


30 •  Value                                                                    April 1 – September 30, 2008
                                                  Semiannual Report to Congress




of $21,972. During an interview, she admitted
that she not only double-negotiated benefit
checks, but also failed to report her earned
income to SSA.
The woman agreed to make full restitution
to SSA. OCIG then negotiated a CMP
settlement in which the subject agreed to pay a
$30,000 penalty based on her false statements.
Finally, SSA adjusted her children’s continuing
benefits based on the woman’s unreported
work activity as a certified nursing assistant.




April 1 – September 30, 2008                                                 Value  •  31
          Semiannual Report to Congress




               People
               The third goal of the OIG Strategic Plan is        Human Capital Planning and
               People. The collective effort of our employees     Management
               continues to be the driving force behind this
               organization’s success in meeting its mission.     We actively pursue and work to retain the
               We provide an encouraging and rewarding            best possible employees. First, our budget and
               work experience with the goal of retaining         staffing plan forecasts employee departures
               these exceptional individuals. OIG leadership      based on historical trends and human resource
               fosters an environment where employees can         data, which allows us to establish optimal
               realize their potential through training and       timeframes for recruiting new employees.
               developmental programs. Each year, OIG             Moreover, OIG managers monitor staffing to
               components convene training conferences to         ensure that vacant positions are filled promptly,
               inform their employees about new procedures        ensuring that OIG components have the ability
               at various levels of our organization. In          to fulfill their respective missions.
               addition, the OIG Organizational Health
                                                                   Our human capital specialists and recruiters
               Committee conducts an annual assessment
                                                                   participate in job and career fairs nationwide.
               of employee satisfaction levels and addresses
                                                                   These events target underrepresented groups in
               employee concerns.
                                                                   the labor market, allowing us to maintain a truly
                                                                   diverse workforce. Once we identify the best
               Budget                                              candidates, we employ a structured interview
                                                                   process to fairly assess their qualifications.
               For FY 2008, our annual appropriation was
                                                                   Through these efforts, we hired 49 employees
               $92 million, which supported an end-of-year
                                                                   during FY 2008.
               staffing level of 576. The salaries and benefits of
               our employees accounted for approximately 89 Also during this reporting period, five
               percent of our spending. We used the remaining participants in the inaugural OIG Leadership
               11 percent for necessary expenses such as travel, Development Program started their first
               training, communications, reimbursable work rotational assignments.
               authorizations and general procurements, as
               well as to provide for basic infrastructure needs Information Technology
               such as rent and interagency service agreements.
               The FY 2008 budget supported our efforts to We provide and maintain most of our own
               meet and exceed our expectations set forth in information technology (IT) systems. Our IT
               our Strategic Plan for Fiscal Years 2006 – 2010, specialists value state-of-the-art tools and place
               Third Edition. The goals and accomplishments a high priority on ensuring that our employees
               measured in our Strategic Plan are also have the latest proven technologies with which
               published in the Annual Congressional Budget to perform their work.
               Justification.
                                                                   During this reporting period, OIG software
                                                                   specialists worked to improve mission critical
                                                                   OIG applications including implementation
                                                                   of additional enhancements to our National


32 •  People                                                                      April 1 – September 30, 2008
                                                                    Semiannual Report to Congress




Investigative Case Management System,               to educate and inspire public confidence in
which is already a model for investigative case     Federal programs.
management across the Federal Government.
                                                    During this reporting period, Inspector General
We have also automated other administrative
                                                    Patrick P. O’Carroll spoke to conference
and business processes and will continue to
                                                    attendees at SSA, as well as the National
proceed in this direction to save both time and
                                                    Association of Disability Examiners and the
money.
                                                    Association of Government Accountants.
In support of the President’s goal to expand        The following are other examples of outreach
electronic services, we maintain an Internet        conducted by OIG officials and personnel.
website that is both informative and useful
                                                           An analyst in our Manpower and
to the public. Citizens using our web-based
                                                           Administration Division assisted
services will find them easy to understand. A
                                                           wounded military personnel at the
workgroup comprised of auditors, investigative
                                                           Walter Reed Army Medical Center
personnel, attorneys, and administrative
                                                           in  Washington, D.C. He met with
specialists continuously monitors the OIG
website to ensure that all information is disabled soldiers who are preparing to leave
                                                  the military and re-enter civilian life, and
accurate and up-to-date.
                                                  provided employment-related assistance as
Finally, our IT staff analyzes industry trends to well as provided emotional support to these
find new technologies which may enhance our often severely wounded individuals.
business processes. In FY 2008, for example,
                                                           Agents from our Des Moines, Iowa
we have upgraded our systems infrastructure
                                                           office participated in the development
to provide ample, secure storage for application
                                                           of the Iowa Public Safety Officers
and user data. During this reporting period,
                                                           Welfare Fund. The fund is designed
we expanded our offsite data replication and
                                                          to  financially help public safety officials
failover capabilities in support of Continuity
of Operations Planning. As part of these and their families in times of crisis. Public
initiatives, we are utilizing virtual server safety officers include law enforcement, fire
technologies for reduced cost and increased service, emergency medical technicians, and
                                                  other first responders whose job is to provide
efficiency.
                                                  the community with protection in times of
                                                  danger, injury, or distress. Last year, during the
Outreach Efforts                                  fund’s inaugural year, over $5,000 was raised
We are always seeking new ways to reach out for the welfare fund, and $1,500 was donated
to the wider Federal community as well as to to needy families of public safety officers.
members of the public. In a variety of venues,   A member of our Atlanta office
we share our mission of promoting integrity      identified various families in West
and excellence in Social Security programs       Virginia and provided clothing and
and operations. These occasions are important    other necessary items to supplement
opportunities to exchange information and the Helping Hands Outreach efforts.
forge partnerships. They also give us the chance




April 1 – September 30, 2008                                                                        People  •    33
          Semiannual Report to Congress




                        The Special Agent-in-Charge of          hurricane-related investigative activity during
                        the New York Field Division and         this reporting period.
                        the Resident Agent-in-Charge of
                        our Iselin, New Jersey office gave a    California Woman Fraudulently
                       presentation on “Identity Theft and      Applied for Hurricane Katrina Disaster
               Crimes Against the Elderly” to senior citizens   Assistance
               of the Crane’s Mills Retirement Community   Acting on information received from the
               in West Caldwell, New Jersey as part of the Department of Homeland Security (DHS)
               community outreach project of the West      OIG, our Fairfield office investigated a woman
               Caldwell Police Department.                 for using another person’s SSN to apply for and
                       An agent from our Milwaukee office receive Hurricane Katrina disaster assistance
                       helped organize and participated in from the Federal Emergency Management
                       the 2008 Wisconsin Police Unity Agency (FEMA). The woman was living in
                       Tour. This activity was established California and receiving public assistance at
                      to raise money for and provide the time of the disaster.
               awareness of the National Law Enforcement The woman pled guilty to making false
               Memorial in Washington, D.C.                claims to a Federal Government agency and
                                                               credit application fraud, and was sentenced
               Hurricane Response Efforts                      in July 2008 to 25 months in prison and 60
                                                               months’ probation. She was also ordered to
               We continue to be actively involved in pursuing pay restitution of $4,358 to FEMA.
               investigations of fraud related to Hurricanes
               Katrina and Rita and helping SSA prepare Louisiana Woman Files False Disaster
               for similar events in the future. Because the Unemployment Assistance Claims
               SSN is a key identifier for various disaster
               assistance programs, we have been a critical As part of the Hurricane Katrina Task
               partner in multi-agency investigations of this Force, our Baton Rouge office participated
               type of fraud. In fact, we have assigned an in a joint investigation with the Department
               agent to the DOJ’s Hurricane Katrina Fraud of Labor OIG, U.S. Postal (LDOL) during
               Task Force in Louisiana, where we have been FEMA relief efforts. The woman filed false
               involved in numerous joint investigations of Disaster Unemployment Assistance claims
               hurricane-related fraud.                        for herself and others using false names
                                                               and SSNs. Moreover, she conspired with a
               As part of the Task Force, OI has secured LDOL employee to process the fraudulent
               six indictments and seven convictions of applications. Three additional co-conspirators
               individuals for hurricane-related fraud participated and benefited from the scheme.
               during this reporting period. Since the
               inception of the Task Force, OI has opened 71 The woman and three co-conspirators pled
               investigations, and secured 58 indictments and guilty and were sentenced in April 2008.
               52 convictions of individuals for hurricane- The ringleader pled guilty to mail fraud and
               related fraud. Following are highlights of our aggravated identity theft and was sentenced
                                                               to 4.5 years in prison and 3 years’ supervised



34 •  People                                                                   April 1 – September 30, 2008
                                                    Semiannual Report to Congress




release. She was also ordered to pay restitution
of $150,233 to LDOL. The first co-conspirator
pled guilty to wire fraud and SSN misuse,
and was sentenced to 4 months in prison,
4 months of home detention with electronic
monitoring, and 3 years’ supervised release.
She was also ordered to pay restitution of
$61,347 to LDOL. The second co-conspirator
pled guilty to wire fraud and SSN misuse, and
was sentenced to 4 months’ home detention
and 5 years’ probation, and was ordered to pay
restitution to LDOL of $32,772. The third                    A Special
co-conspirator pled guilty to access device
fraud, and was sentenced to 5 years’ probation
                                                            Thank You
and ordered to pay restitution of $7,742 to
LDOL. The LDOL employee is scheduled to                The diligent work,
be sentenced at a later date.                         outstanding efforts,
Man Cashes Original and Replacement                 and many contributions
Disaster Assistance Checks                          of our entire OIG staff
Acting on a referral from the DHS OIG, our         make the accomplishments
Birmingham office investigated a 68-year-
old man entitled to Title II retirement and
                                                       highlighted in this
SSI aged benefits. The investigation revealed        Semiannual Report to
that the man received and cashed FEMA                  Congress possible.
disaster assistance checks and then claimed
that the checks were never received. He then
negotiated the original and replacement checks.
                                                   We would like to thank
Investigators also determined that the man         them for their dedicated
worked in 2007 for an automotive company               spirit and many
and failed to report his work activity to SSA.
Due to his work, the man was overpaid $1,866              successes.
in SSI benefits.
The man pled guilty to making a false claim,
and was sentenced in June 2008 to 5 years’
probation, and as a special condition of
probation he was ordered to serve 60 days at
a Residential Re-Entry Center. He was also
ordered to pay restitution of $9,739 to FEMA.
The SSI overpayment will be administratively
recovered by SSA.



April 1 – September 30, 2008                                                 People  •    35
          Semiannual Report to Congress




                                Reporting Requirements
                                         and
                                      Appendices




36  •  Reporting Requirements                     April 1 – September 30, 2008
                                                                 Semiannual Report to Congress




Reporting Requirements
This report meets the requirements of the Inspector General Act of 1978, as amended, and
includes information mandated by Congress.



      Section                             Requirement                              Page(s)

    Section 4(a)(2)    Review of legislation and regulations                         N/A


    Section 5(a)(1)    Significant problems, abuses, and deficiencies                8-35

    Section 5(a)(2)    Recommendations with respect to significant problems,
                                                                                  9-12, 20-23
                       abuses, and deficiencies

    Section 5(a)(3)    Recommendations described in previous Semiannual          Appendices F
                       Reports on which corrective actions are incomplete           &G

    Section 5(a)(4)    Matters referred to prospective authorities and the          8, 12-19,
                       prosecutions and convictions that have resulted            24-28, 34-35

   Section 5(a)(5) &
                       Summary of instances where information was refused            N/A
    Section 6(b)(2)


    Section 5(a)(6)    List of audits                                             Appendix B


    Section 5(a)(7)    Summary of particularly significant reports               9-12, 20-23


                       Table showing the total number of audit reports and
    Section 5(a)(8)                                                               Appendix A
                       total dollar value of questioned costs

                       Table showing the total number of audit reports and
    Section 5(a)(9)                                                               Appendix A
                       total dollar value of funds put to better use

                       Audit recommendations more than 6 months old for
   Section 5(a)(10)                                                               Appendix A
                       which no management decision has been made

                       Significant management decisions that were revised
   Section 5(a)(11)                                                                  N/A
                       during the reporting period

                       Significant management decisions with which the
   Section 5(a)(12)                                                               Appendix D
                       Inspector General disagrees




April 1 – September 30, 2008                                                 Reporting Requirements  •   37
         Semiannual Report to Congress




           Appendix A: Resolving Audit Recommendations
           The following chart summarizes SSA’s responses to our recommendations for the recovery or
           redirection of questioned and unsupported costs. Questioned costs are those costs that are challenged
           because of a violation of law, regulation, etc. Unsupported costs are those costs that are questioned
           because they are not justified by adequate documentation. This information is provided in accordance
           with P.L. 96- 304 (the Supplemental Appropriations and Recession Act of 1980) and the Inspector
           General Act of 1978, as amended.

                           Reports with Questioned Costs for the Reporting Period
                                        April 1, 2008 – September 30, 2008
                                                                                Value                Value
                                                               Number
                                                                              Questioned          Unsupported
             A.	For which no management decision had
                been made by the commencement of the              13               $649,135,765      $1,822,600
                reporting period.
             B.	Which were issued during the reporting
                                                                  19 a        $1,777,001,594          $272,795
                period.


                   	 Subtotal (A + B)                             32          $2,426,137,359         $2,095,395


             	 Less:


             C.	For which a management decision was
                                                                  14          $1,101,143,831                $0
                made during the reporting period.


             	 i.	 Dollar value of disallowed costs.              12               $401,417,863             $0


             	 ii.	 Dollar value of costs not disallowed.          2               $699,725,968             $0

             D.	For which no management decision had
                been made by the end of the reporting             19          $1,324,993,528         $2,095,395
                period.


           ­a. 	 See Reports with Questioned Costs in Appendix B of this report.




38 •  Appendices
38                                                                           April 1 – September 30, 2008
                                                                      Semiannual Report to Congress




The following chart summarizes SSA’s response to our recommendations that funds be put to
better use through cost avoidances, budget savings, etc.


       Reports with Recommendations that Funds Be Put to Better Use
           Reporting Period April 1, 2008 – September 30, 2008

                                                                      Number     Dollar Value
  A. For which no management decision had been made by
                                                                           7       $313,655,191
     the commencement of the reporting period.

  B.	 Which were issued during the reporting period.                     12 a      $808,874,654


  		    Subtotal (A + B)                                                  19     $1,118,414,597


     	 Less:

  C.	 For which a management decision was made during
      the reporting period.
   i. Dollar value of recommendations that were agreed to
                                                                           6       $238,893,183
      by management.

     (a) Based on proposed management action.                              6       $238,893,183


     (b) Based on proposed legislative action.                             0                $0


   ii.	 Dollar value of costs not agreed to by management.                 3       $325,607,380


  		    Subtotal (i + ii)                                                  9       $564,500,563

  D.	For which no management decision had been made by
                                                                          10       $553,914,034
     the end of the reporting period.


   ­a. See Reports with Funds Put to Better Use in Appendix B of this report.




April 1 – September 30, 2008                                                                Appendices  •  39
         Semiannual Report to Congress




         Appendix B: Reports Issued
                                 Reports with Non-Monetary Findings
                                  October 1, 2007 – September 30, 2008
          Audit Number                                Report                                 Issue Date
                           The Effectiveness of the Social Security Administration’s 800-
           A-02-07-17049                                                                     10/19/2007
                           Number Automation Service
                           Follow-up on the Social Security Administration’s Monitoring of
           A-14-07-17102                                                                     10/29/2007
                           Potential Employee Systems Security Violations
                           Management Advisory Report: Single Audit of the Common-
           A-77-08-00002                                                                      11/1/2007
                           wealth of Massachusetts for the Fiscal Year Ended June 30, 2006
                           Inspector General Statement on the Social Security
           A-02-08-18061                                                                      11/7/2007
                           Administration’s Major Management Challenges
           A-15-07-17124   Fiscal Year 2007 Financial Statement Audit Oversight               11/7/2007
                           Social Security Administration’s Controls over Rediscounts of
           A-07-07-17055                                                                     11/28/2007
                           Sensitive Information in the Kansas City Region
                           Management Advisory Report: Single Audit of the State of
           A-77-08-00003                                                                     11/28/2007
                           Washington for Fiscal Year Ended June 30, 2006
                           Management Advisory Report: Single Audit of the State of
           A-77-08-00004                                                                     11/28/2007
                           Wisconsin for Fiscal Year Ended June 30, 2006
                           Management Advisory Report: Single Audit of the State of
           A-77-08-00005                                                                     11/28/2007
                           Colorado for Fiscal Year Ended June 30, 2006
                           Controls for Issuing Social Security Number Verification
           A-04-07-27112                                                                      12/5/2007
                           Printouts
                           Management Advisory Report: Single Audit of the State of
           A-77-08-00006                                                                     12/21/2007
                           Alabama for Fiscal Year Ended June 30, 2006
                           Management Advisory Report: Single Audit of the State of New
           A-77-08-00007                                                                     12/21/2007
                           Jersey for Fiscal Year Ended June 30, 2006
                           Congressional Response - Unimplemented Audit
           A-15-08-28105                                                                      1/31/2008
                           Recommendations Since January 2001
                           Compliance with Disability Determination Services Security
           A-05-07-17082                                                                       2/6/2008
                           Review Requirements
           A-07-07-17072   Administrative Law Judges’ Caseload Performance                     2/6/2008
                           Management Advisory Report: Single Audit of the State of
           A-77-08-00008                                                                      2/13/2008
                           Illinois for Fiscal Year Ended June 30, 2006
                           Management Advisory Report: Single Audit of the State of New
           A-77-08-00009                                                                      2/13/2008
                           York for Fiscal Year Ended March 31, 2006
                           Management Advisory Report: Single Audit of the State of
           A-77-08-00010                                                                      2/13/2008
                           Connecticut for Fiscal Year Ended June 30, 2006
           A-15-07-17061   Process for Awarding Sole Source Acquisitions                      2/14/2008
                           Administrative Costs Claimed by the Alabama Disability
           A-08-07-17151                                                                      2/29/2008
                           Determination Service

40 •  Appendices
40                                                                         April 1 – September 30, 2008
                                                              Semiannual Report to Congress




                       Reports with Non-Monetary Findings
                        October 1, 2007 – September 30, 2008

 Audit Number                                Report                                Issue Date

                   Administrative Costs Claimed by the Connecticut Disability
  A-15-07-27176                                                                    2/29/2008
                   Determination Services

                   Partnership for Strong Families, an Organizational
  A-04-07-17084                                                                    3/14/2008
                   Representative Payee for the Social Security Administration

                   The Appeals Process for Medicare Part D Low-Income
  A-06-08-18005                                                                    3/14/2008
                   Subsidy Eligibility Determinations

  A-08-07-17143    Follow-up: Assessment of the Enumeration at Entry Process       3/20/2008

                   Performance Review of the Social Security Administration’s
  A-15-08-28012    Contract with E-Structors, Inc. For the Disposal of Sensitive   3/20/2008
                   Documents (Limited Distribution)
                   Management Advisory Report: Single Audit of the
  A-77-08-00011    Commonwealth of Puerto Rico Department of the Family for        3/28/2008
                   the Fiscal Year Ended June 30, 2004
                   Management Advisory Report: Single Audit of the
  A-77-08-00012    Commonwealth of Puerto Rico Department of the Family for        3/28/2008
                   the Fiscal Year Ended June 30, 2005
                   Follow-up: The Social Security Administration’s
  A-13-07-17074    Management of Its Federal Employees’ Compensation Act           3/31/2008
                   Program
                   Association of Administrative Law Judges’ Training
  A-12-08-28037                                                                      4/7/2008
                   Conference Costs

                   On-site Security Control and Audit Reviews at Program
  A-03-07-17064                                                                    4/17/2008
                   Service Centers

                   Social Security Administration Employees Acting as
  A-06-07-17047                                                                    4/18/2008
                   Representative Payees

  A-15-07-17132    Performance Indicator Audit: Hearings and Appeals               4/18/2008

                   Assessing the Application Controls for the Social Security
  A-15-07-17155    Administration’s Modernized Claims Systems and National         4/23/2008
                   Disability Determination Services System




April 1 – September 30, 2008                                                           Appendices  •  41
         Semiannual Report to Congress




                               Reports with Non-Monetary Findings
                                October 1, 2007 – September 30, 2008

          Audit Number                               Report                               Issue Date

                           Joint Social Security and Canadian Beneficiaries Residing in
           A-01-05-25124                                                                    5/2/2008
                           the United States


           A-08-08-18026   Removing Social Security Numbers from Medicare Cards             5/2/2008


           A-15-07-17126   Performance Indicator Audit: Earnings Information                5/2/2008


                           Assignment of Social Security Numbers to Noncitizens with
           A-08-07-17044                                                                    5/6/2008
                           Fiancé Visas


           A-15-07-17130   Performance Indicator Audit: Postentitlement Actions           5/16/2008


                           The Social Security Administration’s Compliance with
           A-08-08-18058                                                                  5/21/2008
                           Intelligence Reform and Terrorism Prevention Act of 2004

                           Personally Identifiable Information Made Available to the
           A-06-08-18042                                                                    6/4/2008
                           General Public Via the Death Master File

                           Follow-up: The Social Security Administration’s Internal Use
           A-13-07-27164                                                                    6/9/2008
                           of Employees’ Social Security Numbers

                           Quick Response Evaluation: Timeliness of Medical Evidence
           A-05-08-28106                                                                  6/13/2008
                           at Hearing Offices

                           Follow-up: The Social Security Administration’s Processing
           A-03-07-17067                                                                  6/16/2008
                           of the Internal Revenue Service’s Overstated Wage Referrals

                           Benefit Payments in Instances Where the Social Security
           A-06-07-27156   Administration Removed a Death Entry from the                  6/19/2008
                           Beneficiary’s Record

                           Congressional Response Report: Social Security
           A-06-08-28112                                                                  6/24/2008
                           Administration Payments Sent to Payday Loan Companies

                           Congressional Response Report: Financial Institutions
           A-15-08-28031   Deducting Fees and Garnishments from Social Security             7/2/2008
                           Benefits


42 •  Appendices
42                                                                       April 1 – September 30, 2008
                                                              Semiannual Report to Congress




                      Reports with Non-Monetary Findings
                       October 1, 2007 – September 30, 2008

Audit Number                                Report                                Issue Date

                  Performance Indicator Audit: Disability Determination
 A-02-07-17131                                                                    7/11/2008
                  Services Processing

                  The Social Security Administration Field Offices’ Training of
 A-13-08-18029                                                                    7/28/2008
                  Staff

                  Quick Response Evaluation: Evaluation of the Knowledge
 A-13-08-30117                                                                    7/31/2008
                  Management Website

                  Quick Response Evaluation: Connecticut Department of
 A-15-08-28120                                                                    7/31/2008
                  Social Services’ Request for Additional Funding

                  The Social Security Administration’s Consulting Services
 A-14-08-18020                                                                      8/5/2008
                  Contract for the Time Allocation System

                  Congressional Response Report: Administrative Law Judge
 A-07-08-28094                                                                      8/8/2008
                  and Hearing Office Performance

                  Quick Response Evaluation: The Social Security
 A-14-08-28113                                                                    8/11/2008
                  Administration’s Electronic Government Services

                  Congressional Response Report: Disability Determination
 A-15-08-28114                                                                    8/14/2008
                  Services Disability Decisions


 A-06-08-18015    Beneficiary and Recipient Use of “In Care of ” Addresses        8/19/2008


                  Social Security Cards Mailed to the Social Security
 A-09-07-27154                                                                    8/19/2008
                  Administration’s Field Offices

                  Cherry Engineering Support Services, Inc., Indirect Cost
 A-15-08-18086                                                                    8/21/2008
                  Rate Proposal for Fiscal Year 2006 (Limited Distribution)

                  The Social Security Administration’s Implementation of
 A-14-08-18064                                                                    8/27/2008
                  Internet Protocol Version 6

                  Effectiveness of the Social Security Statement in Correcting
 A-15-07-17089                                                                    8/27/2008
                  Earnings Records



April 1 – September 30, 2008                                                          Appendices  •  43
         Semiannual Report to Congress




                               Reports with Non-Monetary Findings
                                October 1, 2007 – September 30, 2008

          Audit Number                               Report                              Issue Date

                           The Social Security Administration’s Enterprise-Wide
           A-14-08-18014                                                                   9/2/2008
                           Infrastructure Contract
                           Quick Response Evaluation: Controls Over the Social
           A-08-08-28118   Security Administration’s Celebrity File (Limited               9/9/2008
                           Distribution)
                           Social Security Administration Field Offices’ Management of
           A-13-08-18030                                                                 9/15/2008
                           Allegations

                           Risks Posed by Digital Photocopiers Used in Social Security
           A-06-08-28076                                                                 9/18/2008
                           Administration Offices

           A-13-08-28009   Administrative Wage Garnishment                               9/18/2008


           A-06-08-18035   Automated One-Time Payments                                   9/19/2008

                           Fiscal Year 2008 Evaluation of the Social Security
           A-14-08-18063   Administration’s Compliance with the Federal Information      9/19/2008
                           Security Management Act
                           The Social Security Administration’s Contract with Unified
           A-15-08-18033                                                                 9/26/2008
                           Consultants Group, Inc., Contract Number SS00-05-60015

                           Management Advisory Report: Single Audit of the State of
           A-77-08-00013                                                                 9/26/2008
                           Iowa for the Fiscal Year Ended June 30, 2007

                           Social Security Number Misuse for Work and the Impact on
           A-03-07-27152                                                                 9/29/2008
                           the Social Security Administration’s Master Earnings File

                           Administrative Costs Claimed by the New Mexico Disability
           A-06-08-18034                                                                 9/29/2008
                           Determination Services

           A-12-08-28036   Hearing Office Remand Processing                              9/29/2008

                           Quick Response Evaluation: Individuals Withdrawing Title
           A-05-08-28110                                                                 9/30/2008
                           II Benefit Applications
                           Reliability and Accuracy of the Social Security
           A-14-08-18018   Administration’s Exhibit 300 Submissions to the Office of     9/30/2008
                           Management and Budget


44 •  Appendices
44                                                                      April 1 – September 30, 2008
                                                             Semiannual Report to Congress




                               Reports with Questioned Costs
                         October 1, 2007 – September 30, 2008

Audit Number Issue Date                            Report                      Dollar Amount

                                 Controls over Miscellaneous Payments Made
A-09-07-17119    10/25/2007                                                       $105,690,039
                                 Through the Single Payment System

                                 Management Advisory Report: Single Audit
A-77-08-00001     11/1/2007      of the State of Florida for the Fiscal Year          $47,065
                                 Ended June 30, 2006

                                 Social Security Administration Employees
A-01-07-27116    12/12/2007                                                          $245,311
                                 Receiving Benefits


                                 Administrative Costs Claimed by the Rhode
A-01-06-15069    12/13/2007                                                         $1,751,060
                                 Island Disability Determination Services

                                 The Social Security Administration’s Income
                                 and Resource Verification Process for
A-06-06-16135     2/19/2008                                                       $473,494,350
                                 Individuals Applying for Help with Medicare
                                 Prescription Drug Plan Costs
                                 Follow-up on the Impact on the Social
                                 Security Administration’s Programs When
A-01-07-17038     3/14/2008                                                         $7,577,002
                                 Auxiliary Beneficiaries Do Not Have Their
                                 Own Social Security Numbers

                                 Adjustment of Disabled Wage Earners’
A-09-07-17134     3/14/2008                                                        $43,074,961
                                 Benefits at Full Retirement Age

                                 The District of Columbia Disability
                                 Determination Division’s Internal Controls
A-15-08-18019     3/20/2008                                                          $224,354
                                 over the Accounting and Reporting of
                                 Administrative Costs
                                 The Henry Ittleson Center - An
A-02-07-27077     3/27/2008      Organizational Representative Payee for the          $32,700
                                 Social Security Administration

                                 Organizational Representative Payees
A-01-06-15068     4/23/2008                                                          $901,040
                                 Reporting Beneficiaries’ Deaths

                                 Supplemental Security Income Recipients
                                 with Automated Teller Machine Withdrawals
A-01-07-17036     4/23/2008                                                       $226,231,618
                                 Indicating They Are Outside the United
                                 States


April 1 – September 30, 2008                                                        Appendices  •  45
         Semiannual Report to Congress




                                 Reports with Questioned Costs
                              October 1, 2007 – September 30, 2008

       Audit Number Issue Date                         Report                       Dollar Amount

                                     Supplemental Security Income Recipient
        A-01-07-27109   5/19/2008    Marriages Not Reported to the Social               $24,753,496
                                     Security Administration

                                     Quick Response Evaluation:
        A-01-08-28116   5/22/2008                                                       $95,061,451
                                     Underpayments to Widows

                                     Underpayments Payable on Behalf of
        A-09-07-17160     6/9/2008                                                     $445,337,353
                                     Terminated Title II Beneficiaries

                                     Administrative Costs Claimed by the
        A-07-07-17170   6/19/2008                                                          $229,519
                                     Nebraska Disability Determination Services

                                     Title II Benefits to Fugitive Felons and
        A-01-07-17039     7/2/2008                                                      $78,850,962
                                     Probation or Parole Violators

                                     Supplemental Security Income Recipients
        A-01-08-18022   7/23/2008                                                      $408,904,995
                                     with Excess Income and/or Resources

                                     Accuracy of Title II Disability Insurance
        A-04-07-17059   8/13/2008    Benefits Processed with Workers’                       $26,000
                                     Compensation Settlements

                                     Unprocessed Manual Recalculations for
        A-03-07-17090   8/14/2008                                                        $4,954,180
                                     Title II Payments

                                     Individual Volume Representative Payee in
        A-07-08-18039   8/28/2008                                                           $33,521
                                     Topeka, Kansas
                                     Hawaii Department of Human Services
        A-09-08-28045     9/2/2008   – An Organizational Representative Payee              $730,750
                                     for the Social Security Administration
        A-02-08-18074     9/5/2008   Status of Title II Installment Agreements          $15,371,240

                                     Accuracy of Title II Disability Insurance
        A-04-07-17078     9/9/2008   Benefit Triennial Redeterminations for             $19,304,580
                                     2006
                                     Help Group Services, Inc., a Fee-for-Service
        A-04-08-28040     9/9/2008   Representative Payee for the Social Security          $229,792
                                     Administration



46 •  Appendices
46                                                                       April 1 – September 30, 2008
                                                          Semiannual Report to Congress




                           Reports with Questioned Costs
                         October 1, 2007 – September 30, 2008

Audit Number Issue Date                        Report                     Dollar Amount
                               Dually Entitled Beneficiaries who are
 A-09-07-27010     9/10/2008   Subject to Government Pension Offset          $454,662,520
                               and the Windfall Elimination Provision

                               Controls Over the Social Security
 A-02-08-18050     9/11/2008                                                       $3,530
                               Administration’s Transit Subsidy Program

                               The Social Security Administration’s
 A-09-07-17135     9/22/2008   Computation of Delayed Retirement               $1,658,839
                               Credits

 A-02-07-17050     9/30/2008   Medical Consultant Contracts                       $29,003


                                      TOTAL                                 $2,409,411,231




April 1 – September 30, 2008                                                     Appendices  •  47
         Semiannual Report to Congress




                           Reports with Funds Put to Better Use
                            October 1, 2007 – September 30, 2008

    Audit Number     Issue Date                      Report                        Dollar Amount

                                  Social Security Administration Employees
     A-01-07-27116   12/12/2007                                                         $124,176
                                  Receiving Benefits

                                  The Social Security Administration’s Ability
     A-15-07-17095    1/11/2008   to Reach Individuals Using the Social Security       $1,911,000
                                  Statement

                                  Adjustment of Overpayment Balances Related
     A-04-07-17028    1/22/2008                                                       $14,040,881
                                  to Title II Critical Payments

                                  The Social Security Administration’s Income
                                  and Resource Verification Process for
     A-06-06-16135    2/19/2008                                                      $223,594,840
                                  Individuals Applying for Help with Medicare
                                  Prescription Drug Plan Costs

                                  Adjustment of Disabled Wage Earners’
     A-09-07-17134    3/14/2008                                                       $68,088,960
                                  Benefits at Full Retirement Age


                                  Administrative Costs Claimed by the
     A-09-07-17103    3/20/2008                                                        $1,516,055
                                  Washington Disability Determination Services

                                  The District of Columbia Disability
                                  Determination Division’s Internal Controls
     A-15-08-18019    3/20/2008                                                         $264,031
                                  over the Accounting and Reporting of
                                  Administrative Costs

                                  Administrative Costs Claimed by the Colorado
     A-07-07-17136    4/14/2008                                                          $77,659
                                  Disability Determination Services

                                  Supplemental Security Income Recipients
     A-01-07-17036    4/23/2008   with Automated Teller Machine Withdrawals          $100,496,485
                                  Indicating They Are Outside the United States

                                  Supplemental Security Income Recipient
     A-01-07-27109    5/19/2008   Marriages Not Reported to the Social Security        $7,112,193
                                  Administration

                                  Quick Response Evaluation: Underpayments
     A-01-08-28116    5/22/2008                                                      $211,325,654
                                  to Widows



48 •  Appendices
48                                                                     April 1 – September 30, 2008
                                                            Semiannual Report to Congress




                      Reports with Funds Put to Better Use
                       October 1, 2007 – September 30, 2008

 Audit Number Issue Date                       Report                      Dollar Amount
                               Supplemental Security Income
 A-01-08-18022    7/23/2008    Recipients with Excess Income and/or          $169,162,807
                               Resources

                               Ticket to Work and Self-Sufficiency
 A-02-07-17048    8/11/2008                                                  $138,000,000
                               Program Cost Effectiveness


                               Unprocessed Manual Recalculations for
 A-03-07-17090    8/14/2008                                                    $1,237,060
                               Title II Payments


                               Administrative Costs Claimed by the
 A-04-08-18013    8/20/2008                                                       $29,914
                               Georgia Disability Adjudication Services

                               Accuracy of Title II Disability Insurance
 A-04-07-17078     9/9/2008    Benefit Triennial Redeterminations for          $4,753,686
                               2006
                               Dually Entitled Beneficiaries who are
 A-09-07-27010    9/10/2008    Subject to Government Pension Offset           $53,219,100
                               and the Windfall Elimination Provision
                               The Social Security Administration’s Use
                               of Administrative Sanctions in the Old-
 A-07-07-17052    9/19/2008                                                  $123,458,884
                               Age, Survivors and Disability Insurance
                               Program

 A-02-07-17050    9/30/2008    Medical Consultant Contracts                        $1,212



                                       TOTAL                                $1,118,414,597




April 1 – September 30, 2008                                                        Appendices  •  49
         Semiannual Report to Congress




         Appendix C: Reporting Requirements Under the
         Omnibus Consolidated Appropriations Act of FY 1997
         To meet the requirements of the Omnibus Consolidated Appropriations Act of 1997, P.L. 104-208,
         we are providing requisite data for the second half of FY 2008 from the Offices of Investigations
         and Audit in this report and aggregate data for FY 2008.
         Office of Investigations
         We are reporting over $38 million in SSA funds as a result of our investigative activities in this
         reporting period. These funds are broken down in the table below.

                                            Investigative Activities

                          1st Quarter 2nd Quarter 3rd Quarter 4th Quarter                       Total

             Court
            Ordered          $5,731,555       $5,903,778      $5,308,404      $6,031,408     $22,975,145
           Restitution

            Recoveries      $13,420,798     $10,156,052       $9,338,825      $7,124,539     $40,040,214


              Fines            $990,585       $1,392,621      $1,490,091      $1,408,704      $5,282,001


           Settlements/
                               $305,704        $299,826         $704,369        $322,843      $1,632,742
            Judgments


            TOTAL          $20,448,642     $17,752,277      $16,841,689     $14,887,494     $69,930,102



         Office of Audit
         SSA management has informed us that it has completed implementing recommendations from
         17 audit reports during this time period valued at over $803 million.
         Quick Response Evaluation: Underpayments to Widows
         (A-01-08-28116, 5/22/2008)
         No Recommendation – SSA took action during the audit on actual findings. The implemented
         value of this recommendation is $211,325,654.



50 •  Appendices
50                                                                         April 1 – September 30, 2008
                                                                        Semiannual Report to Congress




Supplemental Security Income Recipients with Automated
Teller Machine Withdrawals Indicating They Are Outside the
United States (A-01-07-17036, 4/23/2008)
We recommended that SSA assess the feasibility of obtaining electronic bank statement information to
include transaction-level data so that foreign transactions may be identified and investigated for possible
residency violations. The implemented value of this recommendation is $100,496,485.

The District of Columbia’s Disability Determination Division’s
(DC DDD) Internal Controls over the Accounting and
Reporting of Administrative Costs (A-15-08-18019-04, 3/20/2008)
We recommended that SSA request the DC DDD to reduce the unliquidated medical obligations
by $176,846 and the unliquidated occupancy obligations by $87,185.
 Social Security Administration Employees Receiving Benefits
(A-01-07-27116, 12/12/2007)
No Recommendation – SSA took action during the audit on actual findings. The implemented value
of this recommendation is $124,176.

Improper Payments Resulting from the Annual Earnings Test
(A-09-07-17066, 8/31/2007)
We recommended that SSA determine whether Office of Quality Performance (OQP) should continue
the practice of removing records selected by the Earnings Enforcement Operation (EEO). If SSA
determines OQP should continue this practice, it needs to establish management oversight of this
workload to ensure it is accurately processed in a timely manner.. The implemented value of this
recommendation is $116,226,713.

An Individual Representative Payee for the Social Security
Administration in the San Francisco Region (A-09-07-17063,
7/3/2007)
We recommended that SSA ensure that the Representative Payee use actual rather than estimated
expenses to complete the Representative Payee Reports for all beneficiaries in its care. The implemented
value of this recommendation is $3,349.

Cross-Program Recovery of Benefit Overpayments
(A-13-06-16031, 6/22/2007)
We recommended that SSA comply with its policy for mandatory cross-program recovery of Supplemental
Security Income (SSI) overpayments. The implemented value of this recommendation is $4,563,657.




April 1 – September 30, 2008                                                                         Appendices  •  51
         Semiannual Report to Congress




             Contract for the Migration of I.Levy Software at Disability
             Determination Services (Limited Distribution) (A-07-07-17033,
             5/24/2007)
             We recommended that SSA continue to monitor the interest payments made on contracts and make
             additional improvements to its oversight process, when appropriate. The implemented value of this
             recommendation is $3,000.

             Adjustment of Widow’s Insurance Benefits at Full Retirement
             Age (A-01-07-27122, 5/14/2007)
             We recommended that SSA review the 10,210 cases in our population and take action to pay
             the additional amounts due the widows. The implemented value of this recommendation is
             $137,808,597.

             Administrative Costs Claimed by the Commonwealth of Puerto
             Rico Disability Determination Program (A-06-06-16117, 3/26/2007)
             We recommended that SSA ensure unliquidated obligations totaling $465,323 in FY 2004 and
             $641,927 in FY 2005 are reviewed and obligations no longer valid are deobligated.

             Direct Deposits for Multiple Title XVI Recipients into the
             Same Bank Account (A-02-06-25141, 3/23/2007)
             We recommended that SSA pursue recovery efforts, as warranted, for overpayments identified in this
             report. The implemented value of this recommendation is $264,390.

             Impact of Statutory Benefit Continuation on Disability
             Insurance Benefit Payments Made During the Appeals Process
             (A-07-05-15094, 12/21/2006)
             We recommend that SSA enhance the business process to allow more timely decisions on medical
             cessation appeals. The implemented value of this recommendation is $44,997,323.

             Supplemental Security Income Recipients Whose Medicare
             Benefits Were Terminated Due to Death(A-01-06-26105,
             11/14/2006)
             We recommended that SSA review the cases in our audit population and take appropriate action to
             terminate the Supplemental Security Income (SSI) payments for the deceased individuals and remove
             the erroneous death information for those individuals who are alive and reinstate their Medicare
             benefits. The implemented recommendation is valued at $237,103.




52 •  Appendices
52                                                                           April 1 – September 30, 2008
                                                                   Semiannual Report to Congress




Survivor Benefits Paid in Instances When the Social Security
Administration Removed the Death Entry from a Primary Wage
Earner’s Record (A-06-06-26020, 9/26/2006)
We recommended that SSA perform death verifications for each of the 307 records with survivor
benefit payments identified in the report and take appropriate action. The implemented value of this
recommendation is $4,600,155.

Impact of Statutory Benefit Continuation on Supplemental
Security Income Payments Made During the Appeals Process
(A-07-05-15095, 5/10/2006)
We recommended that SSA remind SSA components of the proper procedures for terminating SSI
benefits following medical cessation decisions. We also recommended that SSA components enhance
the business process to allow more timely decisions on medical cessation appeals. The implemented
value of these recommendations are $172,648,516.

Collection of Old-Age, Survivors and Disability Insurance
Overpayments to Representative Payees for Deceased
Beneficiaries (A-13-03-13049, 7/21/2004)
We recommended that SSA identify and refer all eligible delinquent representative payee OASDI
overpayment debts to Treasury’s Financial Management Service for tax refund and administrative
offset. The implemented value of this recommendation is $2,278,241.

Audit of the Administrative Costs Claimed by the Kansas
Disability Determination Services (KS DDS) (A-07-02-22003,
10/23/2002)
We recommend that SSA instruct KS-DDS and Kansas Department of Social Rehabilitation Services
(KS-SRS) to amend the KS-SRS Cost Allocation Plans for FYs 2001, 2002, and future years to reflect
an equitable distribution of indirect costs to SSA. The implemented value of this recommendation is
$6,138,225.




                              o
Appendix D: Significant Management Decisions
With Which the Inspector General Disagrees
There are no significant management decisions with which the Inspector General disagrees.




April 1 – September 30, 2008                                                                   Appendices  •  53
         Semiannual Report to Congress




            Appendix E: Collections from Investigations and
            Audits
            The Omnibus Consolidated Appropriations Act of 1997 (P.L. 104-208) requires us to report
            additional information concerning actual cumulative collections and offsets achieved as a result
            of OIG activities each semiannual period.


            Office of Investigations

                        Total Restitution Reported by DOJ as Collected for SSA

                                Total Number
                                                                 Court Ordered
                                 of Individuals                                              Total Restitution
                   FY                                            Restitution for
                                Assigned Court                                               Collected by DOJ
                                                                  This Period
                              Ordered Restitution
                   2006                   578                             $18,817,909                   $1,447,402

                   2007                   655                             $26,435,626                     $898,7641

                   2008                   765                             $22,975,145                See Footnote 2

                TOTAL                    1,998                           $68,228,680                    $2,346,166

            Reflects collection for October 1, 2006– June 30, 2007.
            1



            DOJ advised it is currently migrating collection data to a new computer system and the data
            2

            is unavailable at this time. Last available collection data is for the period ending June 30, 2007.


                               Recovery Actions Based on OI Investigations

                                   Total Number of Recovery
                    FY                                                             Amount for Recovery
                                       Actions Initiated

                   2006                           1,865                                              $35,492,314

                   2007                           2,514                                              $44,081,776

                   2008                           1,862                                              $40,040,214

                TOTAL                             6,241                                            $119,614,304




54 •  Appendices
54                                                                                      April 1 – September 30, 2008
                                                                             Semiannual Report to Congress




Office of Audit
The following chart summarizes SSA’s responses to our recommendations for the recovery or redirection
of questioned and unsupported costs. This information is prepared in coordination with SSA’s
management officials and was current as of September 30, 2008.


                                SSA’s Responses to OIG’s Recommendations
                        Recovery or Redirection of Questioned and Unsupported Costs
             Reports with      Questioned/
                                                  Management       Amount Collected Amount Written-
   FY        Questioned        Unsupported                                                                        Balance
                                                  Concurrence      or to be Recovered Off/Adjustments
                Costs             Costs

  2006             24         $1,373,740,596     $1,245,415,125       $1,235,508,053         $129,567,145          $8,665,398


  2007             36        $1,261,104,0451       $878,975,863         $495,515,015         $363,745,310        $401,843,720


  2008             28         $2,409,411,231       $397,388,047         $177,244,085         $699,725,968      $1,532,441,178


TOTAL              88        $5,044,255,872 $2,521,779,035 $1,908,267,1531                $1,193,038,423 $1,942,950,296


   1
       The amounts in the table regarding collections, recoveries, and write-offs/adjustments were not verified by the OIG.




April 1 – September 30, 2008                                                                                Appendices  •  55
         Semiannual Report to Congress




            Appendix F: Significant Monetary Recommendations
            From Prior FYs for Which Corrective Actions Have
            Not Been Completed
            Improper Payments Resulting from the Annual Earnings Test
            (AET) (A-09-07-17066, 8/31/2007)
            Results of Review: Our audit disclosed that SSA did not adjust the benefit payments for all
            beneficiaries who were subject to AET. Based on a random sample of 250 beneficiaries for
            Calendar Years 2002 through 2004, we found SSA overpaid $393,117 to 112 beneficiaries and
            underpaid $44,264 to 16 beneficiaries. As a result, we estimate SSA overpaid about $313 million
            to 89,300 beneficiaries and underpaid about $35 million to 12,800 beneficiaries. These payment
            errors primarily occurred because SSA did not process all records identified by its Earnings
            Enforcement Operation.
            Recommendation: SSA should review and process, as appropriate, all Earnings Enforcement
            Operation selections pending in the Office of Quality Performance since 1996.
            Valued at: $348,680,140 in questioned costs.
            Agency Response: SSA agreed with the recommendation.
            Corrective Action: SSA responded that its draft strategy for handling pending TIER II
            enforcement selections for tax years before 2004 continues to be evaluated. SSA developed a
            plan to process TIER II selections for tax years 2004 – 2005.
            Supplemental Security Income Recipients Eligible as Disabled
            Adult Children (DAC) Under the Old-Age, Survivors and
            Disability Insurance Program (A-13-07-17073, 4/30/2007)
            Results of Review: Our objective was to determine whether Supplemental Security Income
            (SSI) recipients who previously received Old-Age, Survivors and Disability Insurance (OASDI)
            benefits as child beneficiaries were eligible for additional OASDI benefits.
            Our analysis of information in SSA’s Supplement Security and Master Beneficiary Records found
            there were SSI recipients who received OASDI benefits as child beneficiaries who appeared to be
            eligible for additional OASDI benefits. Of the 200 SSI recipients we reviewed, 137 appeared to
            be DAC cases and eligible for additional OASDI benefits. As such, we estimate about 4,047 of
            the 5,908 SSI recipients we identified may be eligible for additional OASDI benefits. In 2007,
            we estimated the OASDI underpayments due was about $23 million.
            Recommendation: SSA should determine whether the 5,908 Supplemental Security Income
            (SSI) recipients are eligible for Old Age Survivors and Disability Insurance (OASDI) benefits
            as Disabled Adult Children (DAC), and calculate the OASDI underpayments due the recipients
            as appropriate.


56 •  Appendices
56                                                                         April 1 – September 30, 2008
                                                                Semiannual Report to Congress




Valued at: $22,937,603 in funds put to better use.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA responded that its Office of Operations has recently identified a
similar workload with much of the same criteria as that used to detect the 5,908 recipients
included in this audit. All cases were released to the regions to work. As of December 31, 2007,
approximately 30 percent of the cases are complete. Because of the complexity of these cases,
the Agency has extended its deadline for completion of these cases to the end of calendar year
2008.




April 1 – September 30, 2008                                                               Appendices  •  57
         Semiannual Report to Congress




             Significant Monetary Recommendations From Prior
             Semiannual Report to Congress for Which Recent
             Corrective Actions Have Been Made
             Impact of Statutory Benefit Continuation on Disability
             Insurance Benefit Payments Made During the Appeals Process
             (A-07-05-15094, 12/21/2006)
             Recommendation: SSA should enhance the business process to allow more timely decisions
             on medical cessation appeals.
             Valued at: $44,997,323 in funds put to better use.
             Corrective Action: SSA responded that its Office of Disability and Adjudication Review began
             the implementation of Electronic Continuing Disability Review (eCDR) decision processing
             beginning March 2008. Now implemented, Agency disability processing components will
             be electronically notified on hearing level Continuing Disability Review (CDR) decisions.
             Because the eCDR is now part of the broader Hearings Backlog Initiative Plan, the Agency
             is closing this recommendation.
             Impact of Statutory Benefit Continuation on Supplemental
             Security Income Payments made During the Appeals Process
             (A-07-05-15095, 5/10/2006)
             Recommendation: SSA should enhance the business process to allow more timely decisions
             on medical cessation appeals.
             Valued at: $158,778,983 in funds put to better use.
             Corrective Action: SSA responded that in his testimony to Congress on May 23, 2007,
             Commissioner Astrue announced that the Social Security Administration developed a plan to
             eliminate the backlog of hearing requests and prevent its recurrence. Since the Commissioner’s
             presentation of his plan, the Office of Disability Adjudication and Review (ODAR) has taken
             an aggressive approach to implementing the numerous initiatives focused on improving hearing
             office procedures, increasing adjudicatory capacity, and increasing efficiency with automation
             and improved business processes. ODAR continues the commitment to implementing and
             developing the Commissioner’s initiatives in important initiatives to support the electronic
             folder initiative, which is the centerpiece of process improvements and efficiencies.
             Because the eCDR is now part of the broader Hearings Backlog Initiative Plan, the Agency
             is closing this recommendation.




58 •  Appendices
58                                                                         April 1 – September 30, 2008
                                                                Semiannual Report to Congress




Appendix G: Significant Non-Monetary
Recommendations From Prior FYs for Which
Corrective Actions Have Not Been Completed
Controls Over Employee Verification Programs (A-03-06-15036,
9/4/2007)
Results of Review: We assessed the controls over SSA’s employee verification programs.
We found that SSA’s Social Security Number Verification Service (SSNVS) had adequate
access and monitoring controls. However, we found that SSA needed to establish more
effective controls over access to its Employee Verification Service (EVS) programs, and that
the Department of Homeland Security (DHS) needed to establish more effective controls
over E-Verify. In addition, we determined that feedback responses provided to employers were
inconsistent among the verification programs. Finally, we found that both EVS programs and
DHS’ E-Verify lacked effective controls related to monitoring employers’ use of the programs.
Because of the vulnerabilities and inconsistencies we found among these programs, SSA’s data
could be susceptible to unauthorized access as well as inadvertent disclosure of personally
identifiable information to unauthorized users.
Recommendation: SSA should ensure feedback responses provided to employers for the four
verification programs are consistent as it relates to (a) name and SSN matches and (b) death
indicator responses.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA responded that its current disclosure policy allows us to share the
same data with employers via any SSN verification process. The routine use established
for the applicable Privacy Act system of records, the SSN Master File (that is, Numident
records), allows information from that system to be disclosed to employers consistent with
their wage reporting responsibilities. Please note that feedback response differences between
the Employment Eligibility Verification System (EEVS) and the various SSN verification
processes were established for different purposes; therefore, it may be appropriate to maintain
different matching protocols. EEVS was designed to verify work eligibility status (determined
by citizenship status) and is driven by Department of Homeland Security needs. The other
programs verify only the SSN, name and date of birth match (and check for death information)
for wage reporting; citizenship status is not checked. We do note, however, that a future
release of the Social Security Number Verification System (SSNVS) will return successful
and unsuccessful matches to the user. This brings the functionality of EEVS and SSNVS in
line with each other.
Lastly, the implementation of this recommendation could be affected by the outcomes for
several pending developments concerning the EEVS program, as several States are enacting
legislation requiring that employers use EEVS. Although comprehensive immigration reform


April 1 – September 30, 2008                                                               Appendices  •  59
         Semiannual Report to Congress




         legislation did not pass, there are other pending legislative proposals mandating the use of EEVS.
         If the legislation is passed, or EEVS is otherwise implemented, the need for other SSN verification
         programs for employers may diminish, as all employers will be required to use EEVS for new
         hires.
         The Social Security Administration’s Incident Response and
         Reporting System (A-14-07-17070, 8/3/2007)
         Results of Review: We reviewed SSA’s system and processes for detecting, reporting, and responding
         to security incidents to determine its compliance with Federal regulations and established standards
         and guidelines. We found SSA had established a framework for its incident response and reporting
         system. However, SSA did not appropriately identify and report all security incidents and had
         not appropriately included OIG in the incident response process.
         Recommendation: SSA should align policy, procedures and practices for reporting personally
         identifiable information (PII) incidents including the Agency’s escalation policy to the
         US- CERT.
         Agency Response: SSA agreed with the recommendation.
         Corrective Action: SSA responded that it will work to ensure practices and procedures for
         reporting and escalation of PII incidents align.
         Social Security Administration’s Management of Information
         Technology Projects (A-14-07-17099, 7/26/2007)
         Results of Review: Our objective was to determine whether SSA received intended value for its
         information technology (IT) investment. We determined whether SSA had a process in place
         to determine whether its IT projects achieved planned functionality and cost savings. We found
         that SSA had developed an evaluation process to verify the planned functionality was delivered;
         however, its IT investment results were not independently verified after project completion to
         ensure the functionality and cost savings were ultimately achieved. SSA has not conducted full
         post-implementation reviews for its IT projects, as required by the Office of Management and
         Budget.
         Recommendation: SSA should implement a Post Implementation Reviews (PIR) process as
         required by the Office of Management and Budget (OMB) and, to the extent possible, leverage
         SSA’s current processes.
         Agency Response: SSA agreed with the recommendation.
         Corrective Action: SSA responded that its Office of the Chief Information Officer (OCIO)
         remains committed to carrying out PIRs subject to the availability of resources. OCIO intends
         to develop a PIR process that follows information technology (IT) investment throughout its life
         cycle, assessing the return on investment along the way, so incremental investment decisions are
         based on current assessments of resources invested and value returned, as well as better informed
         forecasts of future costs and benefits.


60 •  Appendices
60                                                                          April 1 – September 30, 2008
                                                                  Semiannual Report to Congress




Significant Non-Monetary Recommendations From
Prior Semiannual Report to Congress for Which Recent
Corrective Action Has Been Made
The Social Security Administration’s Program For Issuing
Replacement Social Security Cards to Prisoners (A-08-06-16025,
7/13/2006)
Recommendation: SSA should perform a review at each prison with which it is considering
executing a Memoranda of Understanding (MOU) to ensure its procedures for establishing
prisoner identity are sufficient to ensure SSN integrity and compliance with the intent of the
Intelligence Reform and Terrorism Prevention Act of 2004.
Corrective Action: SSA responded that they will perform an onsite review at each prison facility
during the negotiation process. Once SSA negotiates an agreement covering multiple facilities,
as in an agreement with a State Department of Corrections, a site visit will be performed at one
location that is representative of all State-run facilities.
SSA also reported that the prisoner enumeration workgroup developed a negotiators guide to
use when SSA visits a prison facility. The guide contains specific guidelines to follow to ensure
the facility maintains sufficient evidence of each inmate’s identity in the prison files.
The Social Security Administration’s Program For Issuing
Replacement Social Security Cards to Prisoners (A-08-06-16025,
7/13/2006)
Recommendation: SSA should require that field offices perform annual onsite reviews of prison
procedures for submitting prisoner replacement SSN applications and required evidence and
take corrective action as needed.
Corrective Action: SSA responded that the prisoner enumeration workgroup decided to require
an in depth investigation of the prison’s procedures during the negotiation process. All MOUs
are effective a maximum of 5 years. After implementation of the MOU, SSA will perform an
audit of the facility when:
A schedule has been agreed upon (negotiable based on past relationship and familiarity with
facility; or recommended after one year);
There is reason to believe that terms of MOU are not being followed; or
The MOU is scheduled to expire in 4 months and the facility is interested in renewing the
agreement.
Given the limited resources in the regional and field offices, the workgroup considers this option
to be a practicable alternative to scheduled annual audits.




April 1 – September 30, 2008                                                                Appendices  •  61
          Semiannual Report to Congress




                Glossary of Acronyms
                ALJ         Admininstrative Law Judge
                ATM         Automated Teller Machine
                CDI         Cooperative Disability Investigative
                CMP         Civil Monetary Penalty
                DDS         Disability Determination Services
                DHS         Department of Homeland Security
                DI          Disability Insurance
                DMF         Death Master File
                DoC         Department of Commerce
                DoJ         Department of Justice
                eServices   Electronic Services
                ESF         Earnings Suspense File
                FEMA        Federal Emergency Management Agency
                FI          Financial Institution
                FY          Fiscal Year
                GPO         Government Pension Offset
                GSA         General Services Administration
                IO          Immediate Office
                IRS         Internal Revenue Service
                IT          Information Technology
                LDOL        Louisiana Department of Labor
                MEF         Master Earnings File
                NH          Numberholder
                NPRM        Notice of Proposed Rulemaking
                OA          Office of Audit
                OCIG        Office of Counsel to the Inspector General
                ODAR        Office of Disability Adjudication and Review
                OER         Office of External Relations




62 • Glossary                                                        April 1 – September 30, 2008
                                                         Semiannual Report to Congress




Glossary of Acronyms (Continued)
OI             Office of Investigations
OIG            Office of the Inspector General
OQAPR          Office of Quality Assessment and Professional Responsibility
OTRM           Office of Technology and Resource Management
PD             Police Department
PII            Personally Identifiable Information
REDET          Redetermination
SSA            Social Security Administration
SSI            Supplemental Security Income
SSN            Social Security Number
the Act        Social Security Act
VA             Department of Veterans Affairs
WC             Workers Compensation
WEP            Windfall Elimination Provision




April 1 – September 30, 2008                                                       Glossary • 63
     Semiannual Report to Congress




64                                   April 1 – September 30, 2008
     Social Security Administration
     Office Of The Inspector General
                                                                     How to Report Fraud
                                                          The SSA OIG Fraud Hotline offers a means for you to
              Mission Statement
                                                         provide information on suspected f raud, waste, and abuse.
 By conducting independent and objective audits,          If you know of current or potentially illegal or improper
     evaluations and investigations, we inspire              activities involving SSA programs or personnel, we
  public confidence in the integrity and security          encourage you to contact the SSA OIG Fraud Hotline.
  of SSA’s programs and operations and protect
 them against fraud, waste and abuse. We provide                    Call	1-800-269-0271
timely, useful and reliable information and advice
  to Administration officials, Congress and the                   Write	 Social Security Administration
                      public.                        	                   Office of the Inspector General
                                                     	                   Attention: SSA Fraud Hotline
                                                     	                   P. O. Box 17768
               Vision and Values                     	                   Baltimore, MD 21235

  We strive for continual improvement in SSA’s                       Fax	410-597-0118
     programs, operations and management by
  proactively seeking new ways to prevent and                  Internet   www.socialsecurity.gov/oig
   deter fraud, waste and abuse. We commit to
    integrity and excellence by supporting an            To obtain additional copies of this report, please visit our
                                                                  website at www.socialsecurity.gov/oig
  environment that provides a valuable public
service while encouraging employee development
    and retention and fostering diversity and                              SSA Pub. No. 85-007
                    innovation.




         Cover photograph and U.S. Capitol
        photographs used with permission of
                 Steven Ballegeer
                                     Social Security Administration
                                 Office of the Inspector General
                                   Semiannual Report to
                                        Congress
                                     April 1 – September 30, 2008




Report Fraud, Waste, and Abuse
 1- 800 - 269 - 0271
